<html>
<title> - ALLRED AND JOHNSON NOMINATIONS</title>
<body><pre>[Senate Hearing 109-767]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-767
 
                     ALLRED AND JOHNSON NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

THE NOMINATIONS OF C. STEPHEN ALLRED TO BE ASSISTANT SECRETARY FOR LAND 
   AND MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR AND ROBERT W. 
 JOHNSON TO BE COMMISSIONER OF RECLAMATION, DEPARTMENT OF THE INTERIOR

                               __________

                           SEPTEMBER 14, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources




                    U.S. GOVERNMENT PRINTING OFFICE

32-519 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD BURR, North Carolina         TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky
                  Frank J. Macchiarola, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allred, C. Stephen, nominee to be Assistant Secretary for Land 
  and Minerals Management, Department of the Interior............     7
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Crapo, Hon. Mike, U.S. Senator from Idaho........................     3
Ensign, Hon. John, U.S. Senator from Nevada......................     5
Johnson, Robert W., nominee to be Commissioner of Reclamation, 
  Bureau of Reclamation..........................................     9
Reid, Hon. Harry, U.S. Senator from Nevada.......................     2
Salazar, Hon. Ken, U.S. Senator from Colorado....................     5
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     5

                                APPENDIX

Responses to additional questions................................    25


                     ALLRED AND JOHNSON NOMINATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

  OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM 
                             IDAHO

    Senator Craig. Good morning, everyone. The committee will 
come to order. We are here this morning to consider the 
following nominations for positions within the Department of 
the Interior. C. Stephen Allred to be Assistant Secretary for 
Land and Minerals Management and Robert W. Johnson to be 
Commissioner of Reclamation. I welcome both of you before the 
committee.
    At this time, if either of you, Bob or Steve, have brought 
family with you, I would ask you to introduce them to the 
committee and to those in attendance. Steve, do you have family 
with you?
    Mr. Allred. Thank you, Mr. Chairman. I have my wife of 43 
years, in fact of today, 43 years, with me and I also have a 
nephew who lives here in Washington, D.C., Michael Peterson. 
Michael.
    Senator Craig. Wonderful. Well, thank you and welcome to 
the committee.
    Bob.
    Mr. Johnson. Mr. Chairman, I am pleased to have my wife, 
Mary, with me here today. We can't state quite that many years. 
We've been married 32 years. I wouldn't be here without her.
    Senator Craig. Thank you very much. Well, welcome to all of 
you. We are pleased to have you before the committee. We will 
now proceed with the hearing.
    Before we begin the testimony, I want to thank both of you 
for agreeing to undertake these responsibilities. I have known 
Steve for a good number of years and Bob, just this morning, 
reminded me that as a national vice president of the FFA, I met 
him on a mountaintop in Nevada at a leadership camp in the 
summer of 1966, I believe. So your memory was better than mine, 
Bob, but anyway, it is a pleasure for me to renew that 
acquaintance.
    I found Steve and certainly my experience with him to be a 
direct, decisive and knowledgeable when it comes to energy and 
natural resource issues. I have no doubt that he will bring new 
ideas to the Department and will ensure successes at all 
levels.
    Of course, Bob, I want to welcome you to the committee. 
This spring, I toured Hoover Dam, which was one of the projects 
that you've had with your last post. As we all know, Hoover Dam 
is an amazing project and its management issues are as complex 
as the dam is itself and as a Commissioner, I expect you, Bob, 
will use that fine-turned problem solving skill to deal with 
Water 2025 and continue its process forward. I would hope, as 
your predecessor started it. So I very much appreciate both of 
you gentlemen's willingness to serve our country and serve in 
these positions.
    Before I continue, let me turn to the ranking member of the 
full committee, Senator Bingaman of New Mexico, for any opening 
comments he would like to make.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you, Mr. Chairman. I know we have 
our colleagues here waiting to testify. Let me just briefly say 
I welcome both of the nominees. I had the good fortune to meet 
with Steve Allred yesterday and enjoyed that opportunity. I 
know of the record of competent leadership he has provided in 
Idaho. I also have received very good reports on Bob Johnson 
and am looking forward to supporting his nomination as well. I 
do have some questions I want to address to both witnesses when 
the opportunity arises.
    Senator Craig. Thank you very much, Jeff. Now let me turn 
to other of our colleagues who are here to support these 
nominees. A minority leader of the U.S. Senate, Senator Harry 
Reid of Nevada. Senator, welcome to the Committee. Please 
proceed.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Thank you, Senator Craig, Senator Bingaman, 
for your kind comments. This is an oft-used term, but----
    Senator Craig. Harry, is your mic on?
    Senator Reid. I think the mic is on but my voice must not 
be.
    Senator Craig. Okay. Thank you.
    Senator Reid. My notes here say it is a distinct pleasure 
to speak on behalf of Bob Johnson and that really is true. I 
underscore and underline that. He is a native Nevadan, from a 
place called Lovelock, Pershing County and if that weren't 
reason enough to give him my emphatic endorsement, his wife, 
Mary, is from Hawthorne, Nevada. These two places, with the 
State of Nevada being as large as it is, are hundreds of miles 
apart but they are small and very, very important communities 
to make the State of Nevada the unique State that it is. So I 
welcome Bob and Mary to this committee, to Washington, and to 
this job that will be Bob Johnson's. He has been Director of 
the Bureau's Lower Collateral Region Office for more than 10 
years. During that time, he has been a real asset to me, my 
staff, the State of Nevada and the Federal Government. He is a 
man of his word and he will provide leadership as Commissioner. 
We've had another Commissioner of the Bureau of Reclamation in 
years past. During the early eighties, we had a wonderful man 
who recently died, Bob Broadbent, who did such outstanding 
things like he was visionary in looking forward to the fact 
that we needed a new bridge across the Colorado River to ease 
the burden on Hoover Dam. He, not realizing at the time, the 
terrorists threats that would come about and the terrific 
population growth that would take place, but he saw it was 
necessary and Commissioner Broadbent proceeded on that basis. 
Bob Johnson will be every bit as good a Commissioner that 
Broadbent was.
    Bob Johnson earned and maintained the respect of everyone, 
the admiration of everyone while working with issues dealing 
with the Colorado River, quite possibly the most litigated 
river system in the entire--I think this is a tribute to his 
honesty, integrity, determination and fairness. During the 8 
years that Bruce Babbitt was the Secretary of the Interior 
under President Bill Clinton, he was the Secretary's principle 
negotiator on the interim surplus criteria and I say here and 
I've said this to Commissioner Acura and to Secretary 
Babbitt's--in his presence. He was really bad for Nevada on a 
number of issues, especially as it related to mining. But as 
far as water, Secretary Babbitt was really tremendous and one 
reason that he was good, was his son, Bob Johnson, to do a lot 
of the negotiating with the surplus criteria and it worked out 
very well.
    Under President Bush, Bob has remained a key part of this 
Reclamation team. As a Senator, from what I believe is the 
driest State in the union and the home of Hoover Dam, I know 
what the Bureau of Reclamation can achieve. The first ever 
project of the Bureau of Reclamation was a project we have in 
the northern part of the State, near Fallon, Nevada, so we know 
that the Bureau in the past, has helped the desert blossom like 
a rose and cities and towns, not only in Nevada but all across 
the West are thriving and growing because of the work done by 
Bob Johnson and his predecessors. So I commend the committee 
for acting quickly on this nomination. I look forward to 
working with each of you to move Mr. Johnson through the 
process.
    Senator Craig. Senator Reid, thank you very much. Now, let 
me turn to my colleague from Idaho, Senator Mike Crapo.

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Senator Craig, Senator 
Bingaman, Senator Thomas. It is truly an honor for me to have 
been invited to introduce to you today, Steve Allred, who is 
the President's nominee for Assistant Secretary of the Interior 
for Land and Minerals Management. Senator Craig and my 
colleague from Idaho, who joins me in recommending this 
exceptional individual for this position knows him very well, 
just as I do. I appreciate the chance to share a few comments 
on Steve's qualities and his qualifications.
    As you well know from reviewing his credentials, Steve 
brings a distinguished background in public service, 
environmental protection and private sector know-how to this 
post. His long experience shows a commitment to the principle 
of collaboration in solving environmental challenges, a skill 
that is unfortunately all too rare. From January 1999 until 
June 2004, Steve served as the director of Idaho's 
environmental regulatory agency known as the Idaho Department 
of Environmental Quality. In that capacity, Steve was entrusted 
with enforcing State and Federal laws protecting our 
environment. In any circumstance, this would be challenging as 
a major endeavor. But Steve wanted to do more than be the one 
who told people no. He charged himself and his staff with 
finding solutions to problems, opportunities for shared 
interests and results, and a process that sought collaboration 
over discord. I had the chance to work closely with Steve on a 
number of pressing environmental problems in Idaho and each 
time, he consistently worked to promote solutions in which each 
stakeholder and affected person could feel comfortable and 
invested in the outcome.
    In north Idaho, Steve took leadership in developing and 
chartering a community-based panel to evaluate environmental 
hot spots and make recommendations for cleanup. When 
overlapping Federal, State and local officials clashed with 
each other and business leaders in resource-dependent economic 
areas of Idaho, Steve tirelessly managed diverging views and 
put together a plan for environmental protection and 
remediation, with which all could be comfortable.
    He helped resolve a legal battle between an environmental 
group and a local transportation planning authority that 
threatened to stop all highway maintenance work and planning in 
one of the fastest growing regions of our country. Each of 
these examples helps to illustrate the collaborative approach 
that Steve applies to conflict resolution. While it is hardly 
the easiest or quickest means for resource management and 
regulation, it is one that ensures the greatest number of 
people have confidence in and comfort with the decisions that 
are made. I believe Steve understands this because during his 
career, he has been on both sides of the table. He worked for 
17 years with Morrison-Knudsen, where he served as president of 
the company's environmental services group, overseeing the 
environmental compliance of engineering projects. While at 
Morrison-Knudsen, Steve had the responsibility for 
understanding applicable laws and ensuring that company 
projects met those standards.
    Presently, Steve owns a consulting firm that provides this 
same advice to some of our largest resource-based operations in 
Idaho, including CH2M Hill and CWI and as well, he is serving 
as a member of the U.S. Department of Energy's Environmental 
Management Advisory Board.
    Joint stewardship of our natural resources should be 
characterized by partnership, not conflict. I commend Steve 
Allred to you because he understands and embraces this 
philosophy. He comes with the highest endorsement from members 
of the business community and across the political spectrum in 
Idaho. Steve will be a tremendous addition to this 
administration as Assistant Secretary of the Interior and I 
personally thank him for his willingness to serve the public 
again. Thank you very much, Mr. Chairman.
    Senator Craig. Mike, thank you very much for being here on 
behalf of Steve. Now, let me turn to another one of our 
colleagues from the State of Nevada, Senator John Ensign, for 
comments I'm sure he would like to make on behalf of Bob 
Johnson.

          STATEMENT OF HON. JOHN ENSIGN, U.S. SENATOR 
                          FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman and thank you for 
holding this nomination hearing today. I join with my 
colleague, Senator Reid, to introduce one of our constituents, 
Mr. Robert Johnson. Everybody knows him around our parts as 
Bob. Mr. Chairman, President Bush nominated Mr. Johnson to be 
the Commissioner of the Bureau of Reclamation and I commend the 
President for selecting such an outstanding nominee who has the 
expertise and demeanor to oversee the Bureau of Reclamation's 
important mandate of managing water in rest. Mr. Johnson has 
ably served as the Bureau's Lower Colorado River Regional 
Director since 1995 and in this role, among many 
responsibilities, he oversees three major Federal assets: The 
Hoover Dam, Davis Dam and Parker Dam. These critical assets 
have been kept secure after the terrorist attacks of September 
11.
    Mr. Johnson has a deep understanding of the Colorado River. 
The Colorado River provides water to millions of Americans in 
the arid West, generates electricity and is home to diverse 
plants and wildlife. The Las Vegas Valley receives 90 percent 
of its water supplies from the Colorado River through Lake 
Mead. So the proper management of the Colorado River really is 
a life or death issue for Nevadans and our economic well-being. 
Mr. Johnson, I believe, will do an excellent job balancing the 
competing needs among different users of scare water and urging 
cooperation throughout the West, as he has demonstrated with 
the Lower Colorado River. Mr. Chairman, Bob Johnson is a man of 
tremendous character and ability. He brings a Nevada can-do 
attitude to this position. Like me, I know you will find him to 
be well qualified for the job as Commissioner of the Bureau of 
Reclamation and I urge the committee to send his nomination to 
the full Senate and I look forward to his speedy confirmation. 
Thank you, Mr. Chairman.
    Senator Craig. Senator, thank you very much for being here. 
Now let me turn to other colleagues who have joined us. Senator 
Craig Thomas, Wyoming. Senator, do you have any comments you 
would like to make before we start?

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I just welcome Mr. 
Allred and Mr. Johnson. Congratulations on the nomination. Both 
of these jobs are enormously important to my State of Wyoming 
and of course, the management of natural resources, water and 
minerals, is a difficult task. We need to protect them for the 
future and meet the needs of today. So I look forward to 
working with you and thank you very much for your willingness 
to serve.
    Senator Craig. Craig, thank you very much. Now let me turn 
to Senator Ken Salazar of Colorado. Ken, any opening comments 
you would like to make?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Congratulations, Mr. Allred and Mr. 
Johnson, for your nominations. I look forward to working with 
you and I look forward to the hearing this morning. 
Congratulations to your families as well. Thank you, Mr. 
Chairman.
    Senator Craig. Ken, thank you. Gentlemen, the rules of the 
committee, which apply to all nominees, require that they be 
sworn in, in connection with their testimony. So would you 
please rise en route to the table and raise your right hands?
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Mr. Allred. I do.
    Mr. Johnson. I do.
    Senator Craig. Please be seated. Before you begin your 
statements, I will ask three questions that are addressed to 
each nominee before this committee. Each of you, please respond 
separately to each question.
    Will you be available to appear before the committee and 
other congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Steve?
    Mr. Allred. I will, Mr. Chairman.
    Senator Craig. Bob?
    Mr. Johnson. I will, Mr. Chairman.
    Senator Craig. Thank you. Are you aware of any personal 
holdings, investments or interests that could constitute a 
conflict or create the appearance of such a conflict, should 
you be confirmed and assume the office to which you have been 
nominated by the President?
    Steve?
    Mr. Allred. Mr. Chairman, my investments, personal holdings 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. I 
have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof, to my knowledge.
    Senator Craig. Thank you.
    Bob?
    Mr. Johnson. Mr. Chairman, I similarly have made my 
financial holdings available for review and I personally 
reviewed them. The Office of Government Ethics has reviewed 
them. I don't have any conflicts but in the event there was any 
question, I would consult with the Government ethics officers 
to ensure that is the case.
    Senator Craig. Thank you. Are you involved with or do you 
have any assets held in blind trust?
    Steve?
    Mr. Allred. Mr. Chairman, I have none.
    Mr. Johnson. I have none.
    Senator Craig. Thank you. Each of you now may make a brief 
statement. I encourage you to summarize your statements. Your 
entire statements will be included in the record. Following 
that, we will ask you to respond to some questions.
    Mr. Allred, please proceed.

    TESTIMONY OF C. STEPHEN ALLRED, NOMINEE TO BE ASSISTANT 
 SECRETARY FOR LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Allred. Mr. Chairman, distinguished members of the 
committee, it is a real pleasure to be here and to have you 
consider me as Assistant Secretary for Land and Minerals. As I 
introduced a short time ago, my wife, Sally, is here and we 
have the pleasure of celebrating our 43rd wedding anniversary 
today.
    Senator Craig. Congratulations.
    Mr. Allred. We have two grown children and two 
grandchildren that we enjoy very much. My background is such, 
really is shaped by growing up on a farm and ranch in eastern 
Idaho. I had a father who taught all of--I and my three 
siblings--that it was very important that we protect the land 
that we lived on and the land that we used to raise our cattle 
on because that was our future.
    I graduated from Rigby High School in 1960 and then 
attended the University of Idaho where I received a degree in 
engineering in 1964 and a Master's Degree in Engineering in 
1967. I have 42 years of experience, almost equally divided 
between government and private sector activities. I served in 
the cabinets for three different Governors. First, early in my 
career, where I became director of the Idaho Department of 
Water Resources. I served there until I left State government 
in 1981. In 1981, I joined Morrison-Knudsen Corporation, who 
helped build the West, and worked on many of the projects that 
it was involved in. That company is now known as Washington 
Group International. I retired from there in 1998. As you can 
tell, I haven't done very well in retirement.
    During that period of time, I worked extensively with then 
Senator Dirk Kempthorne. I had known him previously in State 
government but I had the opportunity to work with him, as the 
company I was with undertook very important work in removing 
strategic weapons from the former Soviet Union countries. 
Senator Kempthorne was part of that in that he was on Armed 
Services and of course, was responsible for a lot of work that 
we did.
    I also, though, in that career, worked on many projects to 
develop energy resources and coal, oil shale, tar sands, and 
geothermal and I have a great appreciation that an important 
mix of our future energy resources will involve those kinds of 
activities.
    In January 1999, after being retired for a few months, I 
got a call from then-Governor Kempthorne, asking me to become a 
member of his cabinet and an important goal that he gave me was 
to create a Department of Environmental Quality. That had been 
attempted in Idaho for a number of years and had not been 
successful. In the year 2000, we created that agency, one of 
the strongest in the United States, and we did it with no 
negative votes out of the legislature, so I count that as quite 
an achievement for him and for me.
    I again retired in 2004 and have been involved in some 
part-time consulting since then. I think that my experience and 
capabilities give me a lot of background that I think will be 
valuable in resource management. I certainly appreciate the 
importance of the stewardship of those resources, but I also 
recognize that it is important that we have a secure energy 
future. I think there is great opportunity to meld those two 
responsibilities together. As you've heard, I am a consensus 
builder. I believe that the best time to deal with challenges 
is before decisions are made and to try to come up with 
decisions that are win-win for both sides. Mr. Chairman, if I 
am confirmed, I will dedicate my efforts to work with this 
committee and with Congress to solve the issues that we have 
before us. Thank you very much.
    [The prepared statement of Mr. Allred follows:]
 Statement of C. Stephen Allred, Nominee to be Assistant Secretary for 
        Land and Minerals Management, Department of the Interior
    Mr. Chairman and distinguished Members of the Committee, it is an 
honor to come before you today to seek your consent as the President's 
nominee for the position of Assistant Secretary for Land and Minerals 
Management at the Department of the Interior.
    I would like to introduce my wife, Sally, who is here with me 
today. We have a daughter, Stephanie, and a son, Sean, as well as two 
wonderful granddaughters, of whom we are very proud!
    Let me begin by telling you a bit about myself. I grew up on a 
potato farm in eastern Idaho, where the values of integrity and hard 
work were the bedrock of our family. From an early age, I learned that 
it is both an honor and a responsibility to serve others. My values in 
life were ingrained in me by a school teacher mother and a farmer/
rancher father. They taught me to protect the earth, respect nature, 
and to always try to leave things better than I found them.
    I graduated in 1960 from Rigby High School in eastern Idaho. My 
family and ranching background led me to degrees in engineering--
initially a Bachelor of Science degree in agricultural engineering, 
followed by a Master of Science degree in water resource engineering 
both from the University of Idaho.
    I became involved in resource management issues early in my career. 
My first off-the-farm job was with the U.S. Department of Agriculture 
during summer breaks. After graduating from the University of Idaho, I 
worked in State government, first in California on the California Water 
Project, and then in Idaho, where within ten years I became the 
Director of the Department of Water Resources. I was one of the 
youngest people ever appointed to that position. During my tenure as 
Director, I lead the effort in Idaho to develop a State Water Plan, 
including in-stream flows. I also was responsible during that time for 
several water rights adjudication cases, which involved many Federal 
agencies and private parties. The skills I have developed during my 
career in building consensus and fostering agreement among multiple 
parties have served me well. They have helped me to reach successful 
resolution on a number of complex environmental and land management 
issues, such as the Coeur d'Alene Superfund remedy, which involved a 
variety of stakeholders with diverse interests, including the State of 
Idaho, the Federal Government, an Indian tribe, and local citizens. 
They were also instrumental in my efforts to establish a cabinet-level 
department in the State of Idaho dedicated to protecting our 
environment, which I will discuss in greater detail later in this 
statement.
    In 1981, I joined Morrison-Knudsen Corporation (M-K). M-K, now 
known as Washington Group, International, is one of the largest 
engineering and construction companies in the United States. As a Group 
President with worldwide operations, I was responsible for managing a 
work force of over 2500 professional personnel and administering a 
budget for a company group (M-K Environmental Group) with revenues in 
excess of $600 million.
    While working at M-K, I was also involved in the evaluation, 
design, and construction of oil shale projects in Colorado; coal 
projects in Wyoming, Montana, Texas and the international arena; and 
geothermal power projects in the United States and Central America. My 
responsibilities have also included the cleanup and restoration of some 
of the largest environmentally impacted sites in the nation, both for 
industry and government, including mining, chemical, and nuclear 
issues. While at M-K, I experienced the challenge of undertaking large-
scale, new development projects in a manner that was compatible with 
the environment and cultural issues. My awareness of the huge economic 
and social costs of correcting the mistakes of the past has convinced 
me that as we develop our own energy resources in order to assure our 
economic security, we must exhibit good stewardship with appropriately 
defined responsibilities and environmental safeguards.
    In 1999, the year after I retired from M-K, I was asked by the then 
newly elected Governor of Idaho, Dirk Kempthorne, to become a member of 
his cabinet. I had known and worked with Secretary Kempthorne when we 
both served in Idaho State government, and I became better acquainted 
with him when he was a Member of the U.S. Senate. My position with M-K 
brought us together as we worked to remove strategic weapons from the 
former Soviet Union under the Cooperative Threat Reduction Program.
    While I found working in the corporate world both interesting and 
rewarding, as I look upon my career, I find that serving our citizens 
has brought me the greatest satisfaction. When Governor Kempthorne 
asked me to join him in 1999, he had a special vision about how to 
protect environmental values in Idaho while at the same time 
encouraging responsible business development.and expansion. He asked me 
to assist him in establishing a cabinet-level Department of 
Environmental Quality, which required the passage of special 
legislation, an effort that for over 20 years had been attempted 
unsuccessfully in the Idaho legislature.
    I am pleased to tell you that during the 2000 session of the Idaho 
legislature, we were successful in establishing one of the most 
comprehensive environmental management organizations in the United 
States. Moreover, we were able to gain passage of this important 
legislation with no negative votes--an almost unprecedented event in 
Idaho. It was during this period that, in 2001, I had the honor of 
being selected as one of Governing Magazine's Public Officials of the 
Year, in part because of that collaboration.
    The approach we used in establishing the Idaho Department of 
Environmental Quality illustrates the importance that I place on 
transparency and collaboration to resolve issues and build consensus.
    If confirmed, I will approach the issues and challenges confronting 
the Assistant Secretary of Land and Minerals Management in a manner 
that enables a wide variety of interests and stakeholders to 
participate in the discussions, while achieving results efficiently. If 
confirmed, I look forward to learning more about the wide array of 
responsibilities and the many challenges faced by the Bureau of Land 
Management, Minerals Management Service, and the Office of Surface 
Mining Reclamation and Enforcement.
    My approach to leadership is firm, but responsive to the needs of 
employees and stakeholders. I believe that if people understand 
expectations, they generally behave responsibly. I expect to be 
accountable to you and to the public, and I expect accountability from 
others. I believe it is important for government to have clear laws and 
rules, and to be responsive to the needs of its citizens and clients. 
Experience has taught me that results count, and clear processes ensure 
quality and transparency.
    I manage through leadership, and I lead by being involved. If 
confirmed, I will be involved in day-to-day issues, and I will be 
responsive.
    My experiences in both the public and private sectors have shaped 
my attitude and philosophy concerning the responsible stewardship of 
our lands and resources while also meeting our Nation's growing needs 
for energy, minerals, and recreation. We share that responsibility with 
stakeholders at all levels of government, Federal, State, and local, as 
well as with private citizens.
    If confirmed, I will strive to carry out my responsibilities 
through collaboration, cooperation, and transparency.
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you as you consider my nomination. I would 
be happy to answer any questions you may have. Thank you.

    Senator Craig. Steve, thank you very much.
    Now Bob, let's turn to you.

 TESTIMONY OF ROBERT W. JOHNSON, NOMINEE TO BE COMMISSIONER OF 
               RECLAMATION, BUREAU OF RECLAMATION

    Mr. Johnson. Thank you, Mr. Chairman.
    Senator Craig. Please proceed.
    Mr. Johnson. It is a pleasure to be here and to address 
this committee and offer my testimony regarding my 
qualifications to serve as Commissioner of the Bureau of 
Reclamation. President Bush has honored me by his nomination 
and I am grateful for Secretary Kempthorne's and Assistant 
Secretary Limbaugh's support. I am also appreciative of the 
encouragement of my family. Without that, I wouldn't be here 
today.
    At the outset, I would like to make clear my steadfast 
commitment to the highest ethical standards and conduct 
throughout the Bureau of Reclamation. I fully recognize and 
appreciate the enormous trust the public places in each of us 
to carry out our duties with honor and integrity and I intend 
to honor that trust. I also have high expectations that all 
Reclamation employees will know, understand and follow ethics 
rules and regulations.
    I believe that my life experiences have prepared me to be 
here today and make me qualified to be Commissioner of 
Reclamation. I was born in Lovelock, Nevada, a small town in 
the northwest part of the State. My father was a farmer, 
growing alfalfa hay and grain and raising beef cattle. The 
water that irrigated our crops came from a Reclamation project. 
My mother still lives on the farm and my brother also lives 
there with his family, continuing the family tradition of 
farming.
    After high school, I attended the University of Nevada at 
Reno. I earned a Bachelor's and Master Degrees in Agricultural 
and Resource Economics. Upon completion of my Master's Degree, 
the Bureau of Reclamation hired me and I've been there for the 
past 31 years. I worked in the Sacramento Office of 
Reclamation, the Washington, D.C. office, and the office in 
Boulder City, Nevada. By far, the longest part of my career has 
been in Boulder City, most notably, the last 11 years as 
Regional Director.
    During my tenure as Regional Director, we've made great 
progress in the management of the Colorado River but Senators, 
I cannot take credit for all the things that have occurred 
there. There is a great community of people on the Colorado 
River system, the Reclamation staff, the staff of other Federal 
agencies, the Basin States, the water users, environmental 
interests and all of these interests deserve credit for what 
has happened on the Colorado River over the past 10 or 12 or 15 
years. It has been absolutely an honor to be part of that 
progress and the successes that have occurred. The Lower 
Colorado Region is not the only region of Reclamation to have 
successes. Other regions have had similar success in a 
multitude of areas. The can-do attitude of Reclamation 
employees is second to none and I am truly honored to be asked 
to provide leadership.
    Of course, as good as an organization as Reclamation is, 
there is always room for improvement. No organization can rest 
on its laurels. As you and members of the committee know, 
approximately 6 months ago, Reclamation embarked on a self-
assessment of its operations and interaction with stakeholders. 
This effort, called Management for Excellence, builds upon a 
review of Reclamation by the National Academy of Sciences and 
is intended to position Reclamation to be a performance-driven 
organization. If confirmed as Commissioner, completing and 
implementing the Management for Excellence program will be my 
top priority.
    Reclamation is carrying out this self-assessment as we 
speak, in consultation with stakeholders. It is too early or 
inappropriate for me to speculate on the outcomes but if 
confirmed as Commissioner, I intend that there will be two 
hallmarks of the program and that will be transparency and 
efficiency.
    Mr. Chairman, I believe my background and experience make 
me well qualified to lead Reclamation to solve these difficult 
problems that exist in Western water. Growing up on a farm 
gives me a perspective of the views of irrigation districts and 
rural communities when conflicts occur. Working in the 
Southwest for the past 20 years, where urban growth has been 
greater than any other part of the Western United States gave 
me a sense of the difficulties that urban areas face in meeting 
water challenges and managing a major river system has also 
given me an understanding of the complicated interaction 
between our projects and the environment and the need to comply 
with Federal laws and regulations and State laws and 
regulations related to the environment.
    I believe I can provide positive leadership to the 
organization. I seek your support in confirming me as the 
President's nominee to serve as Reclamation's next 
Commissioner. I pledge that I will do my absolute best to serve 
the public interest in the management and development of 
western water supplies.
    [The prepared statement of Mr. Johnson follows:]
Prepared Statement of Robert W. Johnson, Nominee to be Commissioner of 
                Reclamation, Department of the Interior
    Mr. Chairman and distinguished Members of the Committee, I am 
pleased to be here today to offer testimony regarding my qualifications 
to serve as Commissioner of the Bureau of Reclamation. President Bush 
has honored me by his nomination, and I am grateful for Secretary 
Kempthorne's and Assistant Secretary Limbaugh's support. I am also 
appreciative of the encouragement of my family, especially my wife Mary 
and my two children, Gabe and Carly. My wife Mary and son Gabe are here 
with me today.
    I believe that my life experiences have prepared me to be here 
today and make me qualified to serve as Reclamation's Commissioner. I 
was born in Lovelock, Nevada, a small town located in northwestern 
Nevada. My father was a farmer, growing alfalfa hay and grain as well 
as raising beef cattle. The water that irrigated our crops came from a 
Reclamation project. My mother still lives on the farm, and my brother 
Dale also lives there with his family, continuing the family tradition 
of farming.
    After high school I attended the University of Nevada in Reno. I 
earned bachelors and masters degrees in Agricultural and Resource 
Economics. As I was completing my masters degree in 1975, the Bureau of 
Reclamation offered me a job as an agricultural economist in 
Sacramento, California. I accepted and have been with the Bureau of 
Reclamation since that time. During my 31 year career I have worked in 
3 locations and held 7 different job titles. In addition to working in 
Sacramento, I have served in the Commissioner's office in Washington, 
D.C., and the Lower Colorado Regional Office in Boulder City, Nevada. 
Most of my career has been in Boulder City, the most notable period of 
which has been the last 11 years serving as Regional Director.
    During my tenure as Regional Director of the Lower Colorado Region, 
much has been accomplished. I have had a leadership role in developing 
and implementing the following significant changes in the management 
and operation of the Colorado River and the Reclamation projects in the 
Lower Basin:

  <bullet> Established customer oversight committees to review and 
        develop operation and maintenance programs at Hoover Dam. These 
        committees established complete transparency in project 
        operations and resolved longstanding concerns of power 
        customers.
  <bullet> Implemented benchmarking programs at all Lower Colorado 
        River hydroelectric facilities, resulting in significant 
        improvement in cost and efficiency of operations. All three 
        facilities have attained ``best in class'' status among all the 
        North American hydroelectric facilities participating in the 
        benchmarking program.
  <bullet> Negotiated and implemented advance funding agreements with 
        power customers at Parker and Davis dams. The funding 
        agreements eliminated the need for Federal appropriations and 
        established transparency through customer oversight committees.
  <bullet> Implemented interstate water banking regulations that allow 
        off stream storage and exchange of Colorado River water in the 
        Lower Basin on an interstate basis. These regulations enhanced 
        interstate cooperation in meeting current and future water 
        needs in all three lower Colorado River Basin States.
  <bullet> Negotiated settlement of Central Arizona Project repayment 
        litigation, providing a framework for the settlement of Indian 
        water right claims in Arizona. The settlement was subsequently 
        incorporated in the Arizona Water Settlements Act passed by 
        Congress in 2004.
  <bullet> Implemented five Indian water right settlements passed by 
        Congress.
  <bullet> Developed and implemented Lower Colorado River Surplus 
        Guidelines to define when water operations can provide surplus 
        water to water users in the Lower Colorado River Basin in 
        accordance with a Supreme Court Decree.
  <bullet> Oversaw the negotiation and implementation of the California 
        Quantification Settlement Agreement. This agreement provides 
        quantified entitlements for Colorado River water users in 
        California and facilitated the reduction of Colorado River 
        water use by California to its basic apportionment of 4.4 
        million acre-feet. This agreement provided certainty to all 
        seven Colorado River Basin States by reducing long-term uses of 
        the river by approximately 800,000 acre-feet.
  <bullet> Developed and began implementation of the Lower Colorado 
        River Multispecies Conservation Plan. This $600 million plus 
        plan provides 50 years of ESA compliance for Reclamation, the 
        Lower Basin States, and water and power customers on the Lower 
        Colorado River. The plan is the first of its kind and is being 
        used as a model in other river basins.
  <bullet> In conjunction with the Upper Colorado Region, we are in the 
        process of implementing shortage and coordinated management 
        guidelines for operation of the Colorado River system. When 
        completed next year, these guidelines will provide certainty 
        for Colorado River water users in all seven basin States and 
        avoid interstate litigation of long standing issues between the 
        Upper and Lower Basins of the Colorado River system. These 
        guidelines will also include innovative management tools for 
        water users in the Lower Basin, allowing water exchanges, 
        storage credits, and encouraging extraordinary conservation 
        during periods of drought.

    While I have had direct involvement in each of these successes, 
credit for accomplishment must be shared with all of the Reclamation 
staff, other Federal agencies, the Colorado River Basin States, Indian 
tribes, and the water and power users on the Colorado River system. 
This community of people is truly exceptional and has collectively 
accomplished much.
    But the Lower Colorado Region of Reclamation is not the only place 
where difficulties have been surmounted with ingenuity and effective, 
collaborative approaches. Other regions of Reclamation have also 
accomplished much in conjunction with the water and power communities 
that they serve. The ``can do'' attitude of Reclamation employees is 
second to none; employees take pride in helping to meet the water and 
power needs of the West. Reclamation is committed to doing the job 
right, and I am enthusiastic about providing leadership to the agency.
    Of course, as good an organization as Reclamation is, there is 
always room for improvement. No organization can rest on its laurels. 
As you and Members of the Committee know, approximately six months ago 
Reclamation embarked on a self assessment of its operations and 
interaction with its stakeholders. This effort, called Managing for 
Excellence, builds upon a review of Reclamation by the National Academy 
of Sciences and is intended to position Reclamation to be a 
performance-driven organization. If confirmed as Commissioner of 
Reclamation, completing and implementing the Managing for Excellence 
program will be my top priority.
    Reclamation is carrying out this self assessment in full 
consultation with its stakeholders. It is too early and inappropriate 
for me to speculate on the outcomes of the review. However, if 
confirmed as Commissioner, I will ensure that the two important 
hallmarks of the program will be transparency and efficiency. Many of 
Reclamation's costs are paid by its water and power customers. 
Reclamation must fully account for all of its spending and demonstrate 
that its operations are carried out efficiently.
    Other important concepts and priorities that would be part of my 
focus if confirmed as Commissioner include:

  <bullet> Respecting the basic tenet of the Reclamation Act that State 
        law controls in the allocation and management of western water 
        supplies.
  <bullet> Continuing the focus of the Reclamation mission on 
        delivering water and power to Reclamation customers and 
        maintaining adequate funding for project operations and 
        maintenance.
  <bullet> Focusing on collaborative approaches to resolving water 
        issues with a focus on avoiding crises.
  <bullet> Continuing a management philosophy that water problems are 
        best solved at the local level.
  <bullet> Continuing to maintain a balance between centralized policy 
        and decentralized operations and encouraging decisionmaking by 
        field managers while maintaining accountability and appropriate 
        oversight.
  <bullet> Maintaining appropriate consistency among Reclamation 
        projects and regions, but respecting the unique circumstances 
        that surround individual projects. One size does not 
        necessarily fit all.
  <bullet> Focusing on the human capital of Reclamation, attracting and 
        keeping highly qualified people and developing appropriate 
        succession plans to provide long-term continuity.

    Water will continue to be one of the most important issues facing 
the western United States. Population and economic growth in the 
western States has been rapid and is projected to continue with 
commensurate increases in the demand for water. Water needs for the 
environment and recreation will likely continue to grow also. Conflict 
over limited water supplies will be the norm.
    Mr. Chairman, there are no easy answers to these problems. I am, 
however, confident that solutions can be found, and I believe that the 
Bureau of Reclamation can play a role in finding such solutions. The 
role of the Bureau in promoting collaboration between stakeholders in 
situations where water supplies are limited is more important than ever 
before, and we must work to make sure that the organization is properly 
positioned to assist with solutions to tomorrow's challenges.
    In meeting this challenge, Reclamation must first respect its past. 
Irrigated agriculture was the cornerstone of the Reclamation program. 
Reclamation cannot abandon its agricultural water users and must ensure 
that the rights and obligations of all water users are respected. 
Second, Reclamation and the West must prepare for the future. The 
changing urban structure of the West and associated changes in the 
economy and public environmental values dictate the need for creative 
solutions in meeting new demands for limited water supplies.
    Mr. Chairman, my background and experience make me well qualified 
to help lead Reclamation in finding the proper balance to solve these 
problems. Growing up on a farm using water from a Reclamation project 
has given me an appreciation of the perspective that irrigation 
districts and rural communities bring to the table when water conflicts 
occur. Similarly, living and working for the past 20 years in the 
desert southwest, where urban growth rates have outpaced all other 
parts of the country, has given me an appreciation of the difficulties 
that urban water managers face in meeting growing water demands. 
Managing a major river system has also given me an understanding of the 
complicated interaction between our projects and the environment, and 
the need to comply with the many aspects of Federal and State 
environmental laws and regulations.
    I believe that I can provide leadership to Reclamation in 
positioning the agency to be a positive force in solving western water 
problems in the 21st century. I seek your support in confirming me as 
the President's nominee to serve as Reclamation's next Commissioner. I 
pledge that I will do my absolute best to serve the public interest in 
the management and development of western water supplies.
    I would be pleased to answer any questions you may have.

    Senator Craig. Bob, thank you very much. Well, gentlemen, 
both of your statements were timed perfectly. Your time has 
expired. So let us proceed with questions and there may be some 
that we might not choose to ask today, for the sake of time, 
that will be submitted in writing to you, that we would 
appreciate your prompt response to.
    Steve, the members of this committee devoted many hours 
last year getting an Energy Policy Act enacted. Chairman 
Domenici, Jeff Bingaman, myself and Craig Thomas, literally 
worked 5 or 6 years ultimately, putting this package together. 
The statute has numerous provisions intended to promote 
responsible development of our Nation's oil and gas, coal and 
other resources to enhance energy security. Will you commit to 
implementing the provisions of that Act?
    Mr. Allred. Mr. Chairman, members of the committee, 
certainly I will.
    Senator Craig. In your opening comments, you made some 
reference to us. Can you give us your views, generally, on 
encouraging development of the Nation's resources in face of 
conflicting priorities?
    Mr. Allred. Senator Craig, as we look at the environmental 
laws that we have, particularly the impacts on local people, 
there are going to be those kinds of conflicts. To me, the goal 
is going to be to bring those interests and those stakeholders 
in very early, whether they are national or local, and to make 
sure we understand their views and can use the information we 
gain from them to find ways to implement energy projects that 
will protect those other resources and considerations that are 
so important to us.
    Senator Craig. When the President asked Governor, now 
Secretary Kempthorne, to serve as Secretary of the Interior, 
Dirk called me and said, ``What are going to be some of the 
priorities that I should be looking at?'' I said, ``In the 2-
plus years that you will serve under this President, it is 
possible that you will produce more energy for the country than 
the Secretary of Energy.'' And I was referencing all of these 
assets that clearly are there, including obviously the one that 
we're working collectively on, OCS, Lease Sale 181 and now, 
this phenomenal deep-water find that Chevron talks about well 
out in the gulf. I believe that statement I made to the now 
Secretary is valid, that literally, the Department of the 
Interior and its ability to facilitate in light of all of these 
conflicting priorities, can and will produce more energy for 
this country than the Secretary of Energy in the next 2 to 3 
year timeframe. Your reaction to that.
    Mr. Allred. Mr. Chairman, I don't think there is any 
question that we have the opportunity to do that. The challenge 
will be finding a way to do it in a manner that people will 
accept and feel that their interests are protected. We can do 
that. I think there are also lots of opportunities, not only to 
develop the oil and gas resources but there are other 
resources--and I am particularly aware of the oil shale and tar 
sands we have. Of course, I think wind will be important too, 
although it is probably a smaller resource than the others will 
be. But my interest is making sure that we use a combined set 
of objectives, which will maximize our ability to get those 
energy resources on as quickly as possible and I think 
certainly within 2 years, we should see some of those resources 
coming online and be able to rely upon them.
    Senator Craig. Thank you. Bob, your predecessor, John 
Keys--of course, I had the privilege of working with him when 
he served in Idaho and of course, he served us very, very well 
in now the capacity that we trust you will assume soon. When he 
was before this committee, I asked him this question and he 
answered it forthrightly and then proceeded to fulfill it and 
in fact, accomplished it during his tenure. The question was 
this: Will you allow another Klamath to happen?
    Mr. Johnson. Senator, I will do everything that I have in 
my power and in my ability to stop that from happening. That 
was actually a very, very difficult situation and that will be 
one of my top priorities, is to make sure that we don't have 
those kind of circumstances arise again.
    Senator Craig. You mentioned in your opening comments, the 
National Research Council's rather far-reaching report on 
Reclamation. You did talk to it to some extent. How are the 
Managing for Excellence meetings proceeding and what progress 
have you made in these meetings?
    Mr. Johnson. We've now had, I believe, two meetings, with 
interested publics, mostly Reclamation's water and power 
customers, seeking their input, giving them progress reports on 
the status of where we are and what we are doing, getting their 
feedback on the activities that we're looking at. We have 41 
teams that are looking at the various recommendations that the 
National Academy made. We've made significant progress on some 
of those. In fact, we've actually completed a couple of items 
related to developing our policy and putting some new policies 
in place and making those policies transparent. We have another 
meeting scheduled with our constituents for next week and we 
are committed to move along in that process, get it completed 
by the end of 2007, with the schedule that we initially put out 
for everybody's review.
    Senator Craig. Thank you. My last question to you, Bob. Do 
you feel that the stakeholders are being adequately included in 
the process and what complaints, if any, have you heard from 
the stakeholders regarding their involvement in the process?
    Mr. Johnson. I certainly hope that they feel like they are 
getting the proper involvement and if they're not, I would take 
steps to make sure that is occurring. I have not heard any of 
them express any concerns to me directly, that they are not 
getting the input that they feel like they need. So, my sense 
is, that is happening. If it is not, we'll take action to make 
sure that it is.
    Senator Craig. Okay, thank you.
    Senator Bingaman.
    Senator Bingaman. Thank you both again for being here. Let 
me start and ask you, Mr. Allred, a couple of questions about 
this testimony that was made yesterday in the House. This is 
testimony by the Inspector General for the Department of the 
Interior, Earl Devaney, before the House Government Reform 
Subcommittee on Energy. He said, simply stated, ``short of a 
crime, anything goes at the highest levels of the Department of 
the Interior.'' And then he went on to say, ``I have observed 
one instance after another when the good work of my office''--
that is the Inspector General's Office--``has been disregarded 
by the Department. Ethics failures on the part of senior 
Department officials taking the form of appearances of 
impropriety, favoritism and bias have been routinely dismissed 
with a promise `not to do it again.' '' Are you informed about 
this? I mean, this sounds like a very unfortunate circumstance, 
when you have the Inspector General of a Federal department 
making those kinds of charges against the department that he 
has been Inspector General of for many years. Do you have any 
reaction to that?
    Mr. Allred. Senator Bingaman, first of all, let me say I 
really appreciated the opportunity to meet with you. I have not 
been privy to these matters. As you can imagine, I am not a 
Federal employee, so as such, those kinds of discussions have 
not taken place with me. I have to say, though, that I know the 
Secretary very well. I know what his ethical standard is and I 
know that he would not put up with this sort of thing, if in 
fact, it occurred. My own personal attitude comes from my 
father, who taught me that the most important thing you have in 
life is your name and your reputation and through my business 
career and government career, I have absolutely no tolerance 
for impropriety or the appearance of improprieties. So I can 
assure you that over those things which I have control, you 
will find a heavy emphasis on doing the right thing and making 
sure that we protect the interests of our citizens and our 
government.
    Senator Bingaman. Well, I appreciate that assurance and I 
don't question it. I look forward to following up with you once 
we get this full report, which I guess the Inspector General is 
completing his work on. One of the areas you are going to be 
responsible for is the negotiations with regard to these 
royalties in the Outer Continental Shelf. There are some leases 
that were signed in the previous administration that did not 
require payment of royalties, as I understand it, in deep water 
drilling and there are negotiations going on to go ahead and 
see what can be resolved with regard to those. It has been my 
position that the taxpayers of the country are entitled to the 
same kind of royalty from development of public resources that 
private landowners or resource owners are entitled to with 
regard to development of resources on private land. Are you 
generally in agreement with that? Is that what we ought to be 
aiming for in the discussions with these private companies?
    Mr. Allred. Senator Bingaman, I don't know exactly what the 
situation is with those leases. I think it is very unfortunate 
that they are not structured such that they did not require the 
same things as are required now or had been previously 
required. I think it is important for the people of the United 
States to realize the benefit from the resources that are being 
used by private companies. I don't know what the numbers should 
be. I'm not smart enough yet but I certainly will become so, as 
to what the royalties ought to be. But it ought to be 
appropriate for the resources that are being used and the 
people in the United States ought to benefit from those 
resources.
    Senator Bingaman. Okay. Let me switch and ask about NPRA, 
National Petroleum Reserve Alaska. One of the issues that has 
been raised there, 18 of my colleagues joined me in writing to 
Secretary Kempthorne just in June, asking him to reconsider the 
decision to open the lands around the Teshekpuk Lake area. 
These are lands that were put off limits by Secretary Watt over 
20 years ago and last week, the Federal District Court in 
Alaska, made a preliminary ruling that the lease sale should 
not go forward until there has been an environmental analysis 
of the cumulative impacts, and that has been completed. Could 
you assure us that you are going to look at that Federal court 
decision carefully and take into account those cumulative 
impacts in deciding what course to follow with regard to this 
area?
    Mr. Allred. Senator Bingaman, I think it is important that 
we understand all of the resources we have available to us, 
including the environmental and cultural resources as well as 
oil and gas. I don't believe we can make decisions, equitable 
decisions that are going to benefit our citizens down the road 
unless we do know those. So I certainly will do my best to 
understand in any decision that I am responsible for, what the 
impacts of what we are doing or propose to do, are. I also, 
though, want to say that one of my greatest frustrations--this 
is my first entry into being a Federal employee--that one of my 
greatest frustrations in being on the outside, working with the 
Federal Government, is the seeming inability to get decisions 
made. So I also have a great interest in making sure as we go 
forward, that we use all that information but that we also make 
decisions, whether they be to do something or not do something, 
so that people know and have that guidance.
    Senator Bingaman. Thank you. I gather my time is up, Mr. 
Chairman. Thank you.
    Senator Craig. Jeff, thank you very much. Let's now turn to 
Senator Craig Thomas.
    Senator Thomas. Thank you, Mr. Chairman. Mr. Johnson, you 
of course, indicated that you've had a good deal of experience 
on the Colorado River and the lower part of the Colorado River, 
primarily. Are you prepared, I hope, to get familiar and 
represent the interests of the upper seven States in the 
Colorado River? There is often a little confusion there.
    Mr. Johnson. Senator, I work with all seven States on the 
Colorado River system and I have a very good rapport with all 
four Upper Basin States. I understand the sensitivities of both 
basins and I will work very hard to be fair to both basins and 
try to balance those interests and move towards consensus among 
all seven States, absolutely.
    Senator Thomas. Good. I understand the Secretary has the 
authority and the discretion to conduct a mid-year review of 
the Colorado River's annual operating plan to determine the 
volume of water to be released and so on. Is this the case and 
are you familiar with that?
    Mr. Johnson. Yes, I am and yes, it is the case. The 
Secretary does have that authority.
    Senator Thomas. Good. Mr. Allred, as you know, one of the 
issues that is before us often, with BLM, is the delay of 
permits for drilling and mining. The Department has recently 
established a couple of pilot programs, seven pilot programs, I 
guess. What other opportunities do you see to increase the 
efficiency? I don't suggest they reduce their responsibility 
but how can it be done in a more efficient way? Do you have any 
thoughts on that?
    Mr. Allred. Senator Thomas, it was a pleasure to meet with 
you the other day as well. As I indicated to Senator Bingaman, 
one of my frustrations has been in the past, in getting those 
kinds of decisions. I had that experience as well in State 
government where it was taking forever to get permits out the 
door. Sometimes it was a desire not to issue the permits but 
that still meant that people didn't know what the situation was 
and that was very frustrating to me. So I don't know what the 
opportunities are but I can assure you that I will look for 
opportunities to speed that process up, taking proper 
consideration of all the things that we need to consider. But I 
want decisions, I want them as rapidly as they possibly can be 
made, so that people know what to do and can take whatever 
measures they then need to take for their lives and their 
livelihood.
    Senator Thomas. The internal assessment written in May by 
BLM indicated a failure to monitor and limit harm to wildlife 
and air quality from natural gas drilling. The assessment 
contends there is often, ``no evaluation analysis or compiling 
of data, tracking these consequences.'' Have you heard of that 
and what would be your reaction to that?
    Mr. Allred. Senator, I am aware of that. I've just been 
briefed on it as I've been briefed on many other things. I come 
from, again, as you learned from my resume, from an 
environmental regulation background, at least recently, where 
most of the decisions you made had to be made on that kind of 
data. I think it is the responsibility of the applicant or the 
operator to provide that data to us but we should have that 
data and it should be in a form that we prescribe and we should 
audit that data to make sure that we have that information and 
it is correct and can rely upon it. So I agree, we need the 
data. I think it should be the responsibility of the operator 
to provide it to us, just like they do if it is EPA or some of 
the other regulatory agencies.
    Senator Thomas. Mr. Johnson, what limitations are imposed 
by the 1970 coordinating long range operating criteria for the 
Colorado River, relative to the Secretary's authorities to 
release water?
    Mr. Johnson. Those criteria lay out some broad guidelines 
that the Secretary uses to manage the Colorado River system. 
Part of that is to define the release of water from the Upper 
Basin to the Lower Basin as required under the Colorado River 
Compact with the seven States. Those criteria provide for what 
is called a minimum objective release of 8.23 million acre feet 
from the Colorado River system, from the Upper Basin to the 
Lower Basin on an annual basis. Part of what we're doing right 
now, in conjunction with all seven basin States, is taking a 
look at that particular piece of the long range operating 
criteria and looking at how those releases from the Upper and 
the Lower Basin should be made.
    Senator Thomas. Good.
    Mr. Johnson. So that's something that is being looked at 
right now. In fact, I think the Basin States have worked very 
well trying to find some careful compromises.
    Senator Thomas. Good. All right, thank you.
    Senator Craig. Craig, thank you very much. Now let me turn 
to Senator Salazar from Colorado.
    Senator Salazar. Thank you very much, Senator Craig. First, 
my question is to Mr. Allred. I, along with my colleagues on 
this committee, helped in putting together the bipartisan 
effort on the National Energy Policy Act, which we passed last 
year and I'm proud of the effort of this committee and of the 
Senate in that regard. One of my areas of interest in that 
legislation has to do with oil shale. My view is, we put 
together a bill that had the right balance in terms of moving 
forward with the right kind of deliberation. There are some who 
feel that we ought to expedite that to move much more quickly 
in terms of trying to develop oil shale in Colorado, Utah and 
Wyoming. Can you quickly share what your views are in terms of 
the speed with which we ought to move forward on oil shale 
exploration and development?
    Mr. Allred. Senator Salazar, my background, as I indicated, 
in the early 1980's, Morrison-Knudsen as certainly involved in 
oil shale development, including the Union Oil Project that was 
producing oil. At that time, it was not economical to proceed 
after the Federal Subsidies went away but I think it is a 
valuable resource that we need to develop. It is as any other 
time that we extract resources. We need to understand what the 
environmental and what the social impacts are of what we do. I 
don't know how fast that can proceed. I'm very much interested 
in going forward with oil shale but I do also understand and 
believe that we have to understand what we're impacting when we 
do it. But there is a tremendous resource there.
    Senator Salazar. You'd be supportive, then, of making sure 
that both the Federal and the local communities have the 
benefit of the environmental impact statement that is required 
by the law so that we can understand what those impacts are 
going to be on those communities from oil shale development?
    Mr. Allred. Mr. Chairman, Senator Salazar, I mean to--I 
don't know the process so I want to be careful that I don't 
promise something that is not--that I'm not familiar with but I 
can assure you that I will, to the best of my ability, make 
sure the local people are involved in those decisions and have 
the necessary information to provide input.
    Senator Salazar. I appreciate that and I will just ask you 
here on the record to make sure that you are working both with 
me as well as with my colleague, Senator Allard, because oil 
shale development will very much affect our Western Slope in 
Colorado and we need to make sure that as we move forward, that 
it is developed in the appropriate way.
    Second question, in regard to the BLM and the pace of oil 
and gas development, I know many members of the Senate and 
Governors on both the Republican and Democratic side, Senators 
like Senator Burns, Senator Thomas, Senator Bingaman and 
myself, have questioned the pace in which BLM is moving forward 
with the development of energy in my State. Some people have 
said that we've become the sacrificial zone for energy 
development as you see thousands upon thousands of oil and 
natural gas loads being developed. My question to you is, what 
is your view with respect to--in a general way, with the pace 
of development that is taking place in the Rocky Mountain West 
concerning oil and gas development and what is the respective 
role and relationship between the Bureau of Land Management and 
the affected communities? How should the BLM move forward in 
terms of making sure that affected communities are supportive 
of decisions that the BLM is making?
    Mr. Allred. Senator, perhaps I could answer the last 
question first and then build to the other one. My whole 
background in government has been to make sure that local 
people had, first of all the information to provide input, but 
second, the opportunity to provide input as to what decisions 
should be. Many times, those decisions may not please them but 
it is important that they have the opportunity to provide that 
input and to feel that they were listened to. I can pledge to 
you that anything that I have to do with these decisions will 
be such that they have that opportunity and feel that they have 
been given the opportunity to do so.
    With regard to the pace, I don't think I'm smart enough at 
this point in time and have enough information to say whether 
the existing pace is adequate or not adequate or too fast. I 
think it needs to be such that it is deliberative but we have 
to make decisions. Again, I want to make sure that when someone 
asks us to do something, we give them a decision after adequate 
information is available to us.
    Senator Salazar. One more question to Mr. Allred. With 
respect to our best management practices, I'm a supporter of 
oil and gas development in my State but I also have seen the 
concerns of many communities are grave with respect to the pay 
stub of development and different companies have different 
kinds of reputations. There are some companies in my State that 
have very good reputations in terms of best management 
practices that they are using on a whole host of fronts. Other 
companies, frankly, do not. And as the Assistant Secretary, 
would you be willing to push the oil and gas industry, as 
powerful as they are, to make sure that as they explore and 
develop or use natural resources, that they are using the very 
best management practices that have been developed by industry?
    Mr. Allred. Senator, I have little tolerance for people who 
do not use the best management practices and so I think you 
will see my attitude is such that if they are going to use the 
natural resource, then they need to use those best management 
practices, which will protect that public resource, whether it 
be environmental or oil resources.
    Senator Salazar. Thank you, Mr. Allred.
    Mr. Chairman, will we have another round?
    Senator Craig. [Answers off-mic.]
    Senator Salazar. Thank you very much, Mr. Chairman. To Mr. 
Johnson, congratulations and it is indeed, I think, a fortunate 
circumstance that we're in where we have someone who really 
understands the Colorado River system, to run the Bureau of 
Reclamation. So I congratulate you and we'll move forward into 
the complexities that challenge all of us on the Colorado 
River. Let me ask, first just a general question. Your Agency 
has huge projects in my State, from the Big Thompson Project to 
the Arkansas Frying Pan/Arkansas Project and huge issues that 
are very difficult and complex that we're working on. I want 
your pledge, sir, that before I give you my vote of 
confirmation, that you will work closely with me as we try to 
address some of these very complex and conflicting issues.
    Mr. Johnson. Certainly, Senator, I would be pleased to do 
that.
    Senator Salazar. Thank you. Let me turn to a very general 
question on the Colorado River. I remember back in the 1990's, 
the California Drought of 1990, when we got involved in a whole 
set of seven States' discussions about the future of the 
Colorado River and whether the Upper Basin States were going to 
share water with California to deal with that particular issue. 
Do you have any sense as to whether or not the way that we are 
organized to manage the issues on the Colorado River is the 
best way or should there be other things that we ought to be 
doing from an organizational point of view? I'm not talking 
about the issues such as the shortage criteria on the Colorado 
River, but essentially, how we manage it there. For example, 
there is no organization that currently deals with all seven 
States on the Colorado River. You have the Upper Basin, you 
have the Lower Basin and then you have the Big Master, the 
Secretary of the Interior that manages the river. Are there 
better ways of managing this watershed that supplies the water 
supply to so many, many people in our country?
    Mr. Johnson. You're talking about the Bureau's organization 
with the two regions that manage the two basins?
    Senator Salazar. I'm talking the whole management.
    Mr. Johnson. The whole management.
    Senator Salazar. Does it make sense to have a Colorado 
River Commission that would have a representative from each of 
the seven States to identify the issues on the Colorado River 
and try to work through them as opposed to the very ad hoc, 
informal consultation that seems to drag on and on?
    Mr. Johnson. That is a question that has been talked about 
for a long time. In fact, if the States could get together and 
come up with some sort of a mechanism on how that would work, I 
think that could be a good thing. I think it might be difficult 
to do that because--it would be very difficult to define 
exactly how decisions would get made and my guess is, there 
would be a struggle there to come together on some sort of an 
agreement on how that would occur. I mean, if that was 
something that could be worked out, I don't know that I would 
oppose that. I think the model that we have on the Colorado 
River system has served us pretty well. I think that having the 
Secretary of the Interior with some authority to make decisions 
allows a consensus process to occur. Many times, there are 
significant differences among the States and among the water 
users over various issues. It has been my experience that the 
Secretary, by having that authority, can actually bring the 
States and the various interests together and actually have 
some success in getting agreement on how issues ought to be 
resolved. I think the Secretary has to be very careful how that 
authority is used and the collaboration is absolutely essential 
and getting consensus with the Basin States is absolutely 
essential. But I think the Secretary can play a significant 
role in the way that it is currently set up. I mean, that said, 
I wouldn't--you know, I think that if there was a way for the 
seven States to get together, I think that would be--I don't 
know that I would be opposed to that.
    Senator Salazar. I'm not advocating a specific proposal but 
I do think that it is something that is worthwhile to at least 
have a dialogue on. There is a study that has been proposed for 
Frying Pan, Arkansas called the Preferred Storage Option Plan. 
It's looking at the expansion of Pueblo Reservoir and perhaps 
another reservoir on the Arkansas River system. Very 
contentious within my State because of conflicts between Pueblo 
and Colorado Springs and the Lower Arkansas Valley. I'm not 
asking you for a response other than just to pledge to me that 
you will work with me in the year or two ahead, to try to get 
the issues resolved on that proposed legislation.
    Mr. Johnson. Certainly.
    Senator Salazar. And I would do the same with respect to 
another conflict up in the northern part of the State, on the 
Big Thompson Project, where the Northern Water Conservancy 
District and the Colorado River District have been battling 
with respect to who ought to be in the management position of 
that project. I would ask you again, to work with us as we move 
forward on that issue.
    Mr. Johnson. Yes, of course.
    Senator Salazar. Again, I'm delighted that we have somebody 
that really understands the Colorado River at the helm of the 
Bureau of Reclamation.
    Mr. Johnson. I thank you.
    Senator Craig. Ken, thank you very much. Let me come right 
off from your line of questioning with a couple of 
observations, Bob and maybe your reaction to them. I know a 
little bit about the Colorado River but I also understand the 
magic it must take to bring seven States together in a 
watershed as complicated as the Colorado. But there is 
something happening in the West that may be, in fact, an 
opportunity to rejuvenate the Bureau of Reclamation back to a 
point in time when it was once a very--a greater resource to a 
changing West than it currently is today where it is just a 
management of existing systems. The State of Colorado, the 
State of New Mexico, the State of Idaho, your home State of 
Nevada, are growing at an unprecedented rate. We are populating 
at a rate that none of us every imagined would happen because 
the West is a marvelous place to live and a lifestyle that many 
people are seeking today. It also happens to be an area of the 
Nation that has the least amount of water and conflicts, I have 
to believe, into the future, are inevitable and resolution is 
going to be critical. I'm not sure that continuing to divide a 
finite resource is a way to solve a problem in an increasingly 
populating area. It is one way of doing it but I'm not sure it 
will solve all of our needs in the long term. I and others, for 
some time, have been suggesting that there may need to be a 
time when we re-evaluate the potential for additional off main 
stem storage of additional water supplies, beyond just our 
ability to manage existing water. We also know that we've gone 
through prolonged periods of drought. We know what the storage 
system in the Colorado looks like today. It's much lower than 
we would prefer it to be and I guess I'm in search of your 
philosophy more than I am a specific answer because I think we 
have some challenges in front of us in the West. If we're smart 
enough, we can get out in front of and start building consensus 
to do some things that, right now or a year or two or three 
ago, would have been viewed by most as being an impossible task 
but under today's pressures, I think it is moving us in a 
direction where we're going to have to make some decisions. 
Your reaction?
    Mr. Johnson. I certainly think that there are--making the 
pie bigger is always the better solution. If you can develop 
additional water supplies, that can be a very good way to solve 
these problems and I think that there are probably areas where 
that's a good option for dealing with water problems. There are 
other areas where there just isn't any good opportunity--I 
mean, all the water that is there has been developed so it's 
really a matter of trying to figure out how you adjust to the 
changing economy and the changing water needs. But certainly, I 
don't preclude any options when it comes to trying to solve the 
water problems. In some areas, building more storage certainly 
makes sense with additional water funds, if you can.
    I think the perennial concern for the Bureau is--for any 
Federal agency, is budget. That's really a very limiting 
factor. We do have projects that we're working on. The Animas 
major effort for Reclamation that is currently going on. There 
are other areas where we're actually helping develop additional 
water supplies, The Rural Water Program, the Title XVI Program, 
are all programs that are actually creating additional water. 
So using both approaches is the right way to go.
    Senator Craig. I came to Congress in 1980. In 1982, I began 
to work with Colorado Senators and representatives in a program 
called Animas La Plata--1982! My guess is that if the pressures 
of today were then, it might already be completed but that was 
not the case.
    A comment to you, Steve, and it comes off from in part, 
what Ken has mentioned in their concern in the over thrust and 
along the front as it relates to gas development and of course, 
it has to be done right and it must meet the standards of the 
communities and the interests involved. At the same time, we 
are dealing with, in part, some land use plans that were easy 
to make when gas was a dollar a trillion at the wellhead or 
less--I don't know what the price was at the time. When it was 
easy to say, well if we have a conflict, let's just stop or 
let's terminate drilling for periods of months while the 
conflict exists and then we'll move on. Many of those decisions 
were made at a time when we were not losing a chemical 
industry, we were not as dependent on offshore--we had an 
abundance and we never dreamed gas would be $10 or $12 a 
million cubic feet. That day has changed and probably changed 
forever. The over thrust, all of that region of the West, we 
believe, houses, three, four maybe five trillion cubic feet of 
gas. Relatively easy to gain access to, in a general sense.
    So I believe your sensitivity toward all of that in making 
sure that we do it right so that we don't leave a lasting 
impact in an environment that is--because it is high desert 
environment in most instances, is extremely more fragile than 
other types of environments. I say that as an observation 
because I think it is a reality that we have to review again 
and certainly the BLM is caught in the middle of that right 
now. But it is not unlike the reality that is just in the line 
of sight of your birthplace and that is those ridges out back 
of Rigby that are now becoming wind farms. I must tell you, I 
dislike the destruction of that vista, to the whop, whop, whop 
of a wind farm. But I guess that's the reality of where we are 
today.
    So, due caution and at the same time, your comments about 
making decisions based on the facts that are available are also 
critical. This is a time when our country needs decision. It 
needs decisiveness as it relates to these key issues. Our 
dependence on foreign resources has put this country in a 
compromised position it should not tolerate and that's part of 
why I think we collectively came together in the Energy Policy 
Act of last year.
    Let me turn to Senator Bingaman for additional comments he 
would wish to make and I'll be submitting some questions for 
the record.
    Senator Bingaman. Thank you again for that, Mr. Chairman.
    Mr. Johnson, let me just ask one or two questions and then 
I'll stop. One issue that I have been greatly concerned about 
is getting the Environmental Impact Statement completed for the 
Navajo Gallup Project. In early July, I sent a letter to 
Secretary Kempthorne requesting the Department release the 
draft EIS on the Navajo Gallup Pipeline. That letter was a 
follow-up to one that we did in April 2003, to Commissioner 
Keyes, urging Reclamation to complete that. I was told then 
that we could expect release in February 2004. Obviously 
February 2004 has passed, so this thing has been in the works 
for something approaching 8 years. I would just ask you to 
review this situation, once you are in this position, and 
report back to us, if you could, for the record, as to the 
status of the Environmental Impact Statement and what is a 
realistic expectation for us on getting this done. It seems to 
me that it has become an embarrassment to anybody watching the 
process.
    Let me ask also and I'll get a chance to visit with you 
tomorrow, I believe, separate from this hearing but I also am 
anxious to get a clearer notion as to where the Bureau of 
Reclamation is with regard to the Eastern New Mexico Rural 
Water Project, which is something that I've been very 
supportive of and of course, one of the main issues before you. 
I don't call on you to really respond to this right now, but I 
think a main issue is how the Bureau of Reclamation is changing 
its planning process in light of global warming. I would think, 
as the largest water manager in the West, that the Bureau of 
Reclamation would be taking the lead in trying to understand 
the effects of global warming and factoring those into their 
management plans. I'd be anxious to know, as we go forward, 
what you are able to do in that regard. I would hate for this 
to be an instance where the Federal Government is the last one 
to wake up to the seriousness of this issue. I think the Bureau 
of Reclamation can provide some useful leadership on this and I 
hope you'll see it that way, too.
    Mr. Chairman, I'll stop with that and again, I appreciate 
the nominees being here and for the hearing being scheduled.
    Senator Craig. Senator Bingaman, thank you very much. 
Gentlemen, thank you very much for again, your presence and 
your willingness to serve our country in these critical areas 
at this particular time in our Nation's history. I think, as 
most of us have expressed, we sense concern to the issues and 
the importance of the roles you will play for the Nation and in 
the West, where much of your authority rests. So we thank you 
much for being with us today.
    The hearing will stand adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of C. Stephen Allred to Questions From Senator Domenici
    Question 1. At a hearing yesterday in the House, the Department of 
the Interior IG gave a rather scathing report on the ethics culture 
within the Department that specifically addressed certain areas that 
would be within your purview if you are confirmed. I realize that you 
are probably not aware of specific problems, but could you tell us 
generally what management techniques you plan to use to promote 
integrity and ethical conduct within your areas of responsibility?
    Answer. As I stated at my confirmation hearing yesterday, the most 
important character trait any individual possesses is integrity. 
Ethical conduct, integrity, and responsibility do not occur simply 
because management requires it. We have to create and reinforce that 
behavior by being clear, making sure our expectations are understood, 
and by setting the example ourselves. If I am confirmed, you can be 
assured I will set that example, and I will make clear my expectation 
to our employees regarding their conduct. I will also make sure our 
customers understand our standards of conduct.
    Question 2. Please explain the steps that you plan to take to 
ensure that alternative energy forms advanced in Section 388 of the 
Energy Policy Act of 2005 are given appropriate attention with the 
Department of the Interior.
    Answer. I understand the Department has already begun the process 
for developing rulemaking and has been conducting public meetings to 
gather information and input from potentially affected stakeholders. If 
confirmed, I will work with the MMS toward the development of a program 
for alternative energy on the OCS under Section 388 of the EPAct.
    Question 3. As I am sure that you are aware, there has been a great 
deal of controversy this year surrounding the failure of the Clinton 
Interior Department to include price thresholds in deepwater OCS oil 
and gas leases issued in 1998 and 1999. Earlier this year, I supported 
an amendment in the Interior Appropriations subcommittee that gives the 
Secretary clear authority and parameters to renegotiate these leases. 
It is my understanding that certain parties to these agreements have 
begun negotiations.
    If confirmed, will you make the success of these discussions a top 
priority and will you be committed to making these negotiations 
successful to the best of your ability?
    Answer. If confirmed, I will work to ensure the negotiations are 
fair to all concerned, including the American taxpayers.
    Question 4. Can you also assure me that if confirmed you will be 
committed to doing a thorough examination of OCS oil and gas leasing 
policies to ensure that the failures with respect to the 1998 and 1999 
leases are not a systemic problem in the Department?
    Answer. If confirmed, I will review procedures to make sure that 
similar failures will not occur in future lease contracts.
    Question 5. On August 1, the Senate passed S. 3711, a bipartisan 
energy bill that provides for oil and gas leasing areas in the 181 Area 
and south of the 181 on the Outer Continental Shelf. Furthermore, this 
bill provides important revenues to the coastal producing states and to 
the stateside Land and Water Conservation Fund.
    Are you supportive of the concept of additional oil and natural gas 
production on the OCS beyond what is permissible under current law?
    And, do you support enactment of an OCS bill this year?
    If confirmed, will you work in your capacity to ensure that the 
areas identified in S. 3711 area leased by their statutory deadline if 
such legislation is enacted into law?
    Answer. I support the Administration's position to work with 
Congress on greater access to OCS resources. If legislation is enacted, 
and if I am confirmed, I will work to meet the requirements of the Act.
    Question 6. Will you commit to actively support the OCS areas 
covered under S. 3711 from future moratoria in Interior Appropriations 
bills if S. 3711 is enacted?
    Answer. I support the Administration's position to work with 
Congress on greater access to OCS resources. If legislation is enacted, 
and if I am confirmed, I will work to meet the requirements of the Act.
    Question 7. The bulk of America's oil shale resource is on Federal 
Land. This may represent our best chance to eliminate our dependence on 
Mideast oil. In the Energy Bill we took steps to initiate an Oil Shale 
Program at BLM and they seem to be making good progress.
    Can I get a commitment that the Department will continue to 
aggressively implement such a program under your watch?
    Answer. If confirmed, you have my commitment that I will continue 
the work begun by the Department in implementing the Energy Policy Act 
of 2005 provisions relating to Oil Shale development. I agree this is 
an important resource that can contribute to our energy security, and 
we need to understand the environmental and social impacts of what we 
do so we can responsibly develop this important resource.
    Question 8. The Energy Bill included a significant rewrite of the 
Geothermal Steam Act. Geothermal Energy has the potential for playing 
an important role as a clean source for renewable energy.
    What can we expect from BLM in finalizing its rulemaking and 
implementing this program in the next few months?
    Answer. I have a keen interest in responsible development of 
geothermal resources, but I have not had the opportunity for a full 
briefing on the BLM's efforts in finalizing the rulemaking and 
implementing the geothermal program. However, if confirmed, you have my 
commitment to become well-informed on this issue, and see to it the BLM 
continues to expeditiously complete the rulemaking and implement the 
program.
    Responses of C. Stephen Allred to Questions From Senator Thomas
    Question 9. BLM offices in Wyoming are having a very difficult time 
retaining staff because they leave to work for energy companies. I 
would like to work with you on solutions to this problem. Is there an 
effort underway at the Department to address this issue and what do you 
bring to that effort?
    Answer. While I am not familiar with the problems you describe with 
employee retention in the BLM's Wyoming offices, I have experienced 
this same issue elsewhere. If confirmed, I will look into this issue to 
determine what steps need to be taken to improve the situation. I look 
forward to working with you to find creative solutions to this issue 
and welcome your ideas.
    Question 10. Many of the decisions made by the Department in my 
state are appropriately reviewed on a case-by-case basis in state 
offices. I believe that the environmental community, the energy 
industry and DOI employees would benefit from more consistency, 
however. Do you believe there is a way to provide more predictability 
between the different offices on permits and environmental work?
    Answer. Although I have not had the opportunity to discuss this 
issue in detail with the BLM, I am aware that environmental conditions 
can vary geographically from one area to another. However, if 
confirmed, I will look into this issue and work with you to identify 
the right balance in decision-making on resource uses across all BLM 
field offices.
   Responses of C. Stephen Allred to Questions From Senator Bingaman
    Question 11. NPR-A--In June, eighteen of my colleagues joined me in 
writing to Secretary Kempthorne asking him to reconsider the decision 
to open protected lands in the National Petroleum Reserve-Alaska in the 
vicinity of Teshekpuk Lake. These lands were put off limits by 
Secretary Watt over 20 years ago. Last week, the Federal District Court 
in Alaska preliminarily ruled that the lease sale should not go forward 
until further environmental analysis of cumulative impacts is 
completed.
    Will you ensure that cumulative impacts are considered?
    Answer. As I stated at my confirmation hearing, I believe it is 
always important that we consider the impacts of development on our 
resources. If confirmed, I will work with the BLM to address the 
concerns raised by the District Court.
    Question 11a. Do you think the BP pipeline failure teaches us 
lessons and provides new information that should be considered as we 
proceed with oil and gas leasing on the North Slope?
    Answer. While I am not intimately familiar with the details 
surrounding the BP pipeline failure, I think any time an incident such 
as this occurs it is incumbent upon all citizens to be responsible 
stewards of the public lands and to take the necessary steps to ensure 
best practices are utilized so that similar incidents do not recur.
    Question 11b. Do I have your commitment that you will review this 
decision and keep us informed as to the status of this lease sale?
    Answer. Yes
    Question 12. NPR-A--I understand that the lease sale for Northeast 
NPR-A has been scheduled to occur prior to issuance of the regulations 
implementing the Energy Policy Act provisions relating to the NPR-A.
    Why has this lease sale been scheduled before the regulations are 
issued? When will the regulations be issued?
    Answer. I have not had the opportunity to review the decision-
making process about the Northeast NPR-A lease sale. If I am confirmed, 
I will work with the BLM and the Office of the Solicitor to review both 
the leasing procedures and any potential legal issues surrounding the 
NPR-A regulations and leasing schedules.
    Question 13. NPR-A--Section 347 of the Energy Policy Act of 2005 
amends the law applicable to leasing in the NPR-A with respect to lease 
renewal and unitization.
    Does the Department interpret these provisions to allow a lessee to 
hold a lease for longer than 30 years without production if the lease 
is part of a producing unit? If so, how long can a lease be held 
without production?
    Does the Department interpret this provision to place any limits on 
the size of a unit? Has any legal analysis been undertaken with respect 
to the interpretation of section 347? If so, can you please provide a 
copy?
    Answer. I have not been briefed on the Department's interpretation 
of how Section 347 of the Energy Policy Act of 2005 affects NPR-A 
leasing decisions. If confirmed, I would be happy to confer with you on 
this issue once I have had the opportunity to become informed of the 
details.
    Question 14. BLM Inspection and Enforcement--The document entitled 
``Bureau of Land Management Pinedale Field Office--Commitments Made in 
Decision Document not yet Achieved'' presents a summary of commitments 
made by BLM when it issued oil and gas leases and indicates that many 
of these commitments have not been kept.
    Do I have commitment that you will ensure that there are adequate 
resources within BLM dedicated to oil and gas inspection, enforcement, 
and monitoring, so that the agency can keep its commitments in 
understanding the oil and gas leasing program? Have similar summaries 
setting forth the status of implementation of leasing commitments been 
prepared for other areas? If so, please provide a copy.
    Answer. I have seen the articles in the press on this issue. 
However, I have not yet spoken with any of the Department of the 
Interior or BLM program staff on this complex issue. If confirmed, I 
will ensure that the proper emphasis is placed on oil and gas 
inspection, enforcement, and monitoring activities.
    Question 15. Diligent Development--I am advised that there are over 
26 million acres of Federal onshore lands that are under oil and gas 
lease but not producing and 33 million acres of the Federal OCS are 
under lease but not producing. At a time of high prices and when we are 
in need of additional domestic oil supplies, I find this hard to 
understand. I have asked GAO to look into the reasons for this and to 
review the requirements for diligent development of federal leases.
    Will you ensure that agency personnel cooperate fully with the GAO 
in their efforts to review this matter?
    Answer. Yes
    Question 16. Deep Water Royalty Relief--A discovery of up to 15 
billion barrels of oil in Federal waters of the Gulf of Mexico was 
announced last week.
    How many leases in this geologic formation were issued in 1998 and 
1999 without price thresholds, so that a specified amount of oil and 
gas can be produced without paying royalties even though prices are at 
record highs?
    Answer. I have not yet had an opportunity to hear the full details 
of the exciting new frontier in the Gulf of Mexico. If confirmed, I 
would be pleased to visit with you more about this issue and supply 
this information when it becomes available.
    Question 17. Revenue Sharing--The new discovery in the Gulf of 
Mexico (of up to 1 5 billion barrels of oil) underscores the high cost 
to the Treasury of the revenue sharing provisions of the OCS bills 
pending before Congress.
    How much revenue would be forgone to the Treasury under the House-
passed bill if the discovery is in fact 15 billion barrels of oil?
    Under the Senate bill?
    Answer. I have read the press accounts of this new frontier, which 
is very exciting. I am not familiar with the details of either piece of 
legislation. However, if confirmed, I will work with the Minerals 
Management Service to provide an analysis to the Committee.
    Question 18. Royalty Audits--MMS is authorized to enter into 
memoranda of understanding with States and Indian tribes to undertake 
audit work for royalties generated on Federal lands. There has been 
concern among some states that MMS is not adequately funding this work 
by the states and tribes.
    What steps will you take to ensure that States and Tribes receive 
adequate funding to undertake this important work?
    Answer. The Minerals Management Service informed me they have 
developed a plan to reallocate funds to best ensure the activities and 
needs of the compliance and audit program are met. If confirmed, I 
would be pleased to discuss the issue further with you.
    Question 19. Tribal Trust Responsibility--Please comment on what 
steps you plan to take as a Federal official to carry out the Federal 
government's tribal trust responsibility.
    Answer. I am very respectful of the Government's tribal trust 
responsibilities. If confirmed, I will familiarize myself more with 
these issues to determine the obligations of this office and commit 
that I will carry out these responsibilities diligently.
    Question 20. Multiple Use Mission--Please comment on your 
understanding of BLM's multiple use mission for management of our 
public lands.
    Answer. It is my understanding that the multiple-use mission of the 
BLM is at the heart of what that agency does in managing our public 
lands. However, multiple use does not mean that every acre of public 
land is available for every use. Rather, multiple use means balancing 
the various uses the BLM is charged with providing to the American 
public, including recreation, grazing, forestry, access to mineral 
development, watershed and wildlife habitat protection, and the 
management of BLM's special places, such as wilderness, national 
monuments, national conservation areas, and national historic trails.
    Question 21. Coalbed Methane Report--Please comment on the status 
of this report required by section 1811 of the Energy Policy Act of 
2005. Will you ensure that adequate resources are made available for 
this important report on water and coalbed methane production?
    Answer. I have not had the opportunity for a briefing on the 
Coalbed Methane Report requirements of Section 1811 of the Energy 
Policy Act of 2005. However, if confirmed, I will become informed on 
the issue and would be pleased to visit with you about it.
    Question 22. Deepwater Royalty Relief--Has the Department 
undertaken a legal analysis of (1) whether the doctrine of mistake 
applies to the 1998 and 1999 contracts that did not include price 
thresholds; or (2) the authority of the Department to limit royalty 
relief even in the absence of a specific term to that effect in the 
lease? If so, please provide a copy of the analysis.
    Answer. Because I am not employed by the Department, I am not privy 
to any legal analysis or advice the Department's lawyers may have given 
on these questions. If confirmed, it will be a high priority for me to 
become fully informed on these issues.
     Responses of C. Stephen Allred to Questions From Senator Wyden
    Question 23. During the late 1990's the Department of Interior 
negotiated more than 1,000 leases to develop oil resources without the 
price triggers that would require lessors to pay royalties to the 
federal government. Several energy companies have now agreed to 
renegotiate these leases with the Department's Minerals Management 
Service that will be under your supervision.
    If confirmed as Assistant Secretary, what will be your timetable 
for completing renegotiation of these leases?
    When will you expect that these companies will start paying 
royalties?
    Answer. The Congressional Budget Office recently estimated that 
renegotiation of these leases could increase Federal revenues by $2 
billion over five years and $9 billion over 10 years.
    Question 23a. How much of this royalty revenue will you seek to 
collect as part of the lease renegotiations?
    And, do you support using these revenues to make county payments 
under the Secure Rural Schools and Community Self Determination Act?
    Answer. If confirmed, it would be my intention to complete the 
negotiations as soon as possible to help ensure a fair resolution of 
this issue.
    While I am not aware of the status of the negotiations on the 
leases, I have been informed that the Administration is continuing to 
work with your office on finding funding solutions for the Secure Rural 
Schools and Community Self Determination Act, and I support that 
effort.
                                 ______
                                 
   Responses of Robert W. Johnson to Questions From Senator Domenici
                            title transfers
    Question 1. Mr. Johnson, Reclamation currently has an 
administrative process for the transfer of uncomplicated projects. It 
is my belief that the process is not as aggressive or comprehensive as 
it should be. I introduced legislation (S. 3832) that would direct the 
Secretary of the Interior to promulgate criteria for the transfer of 
title to Reclamation facilities and lands, including multi-purpose and 
multi-beneficiary projects. The bill also directs the Secretary of the 
Interior to undertake a study to identify which Reclamation facilities 
may be appropriate for transfer.
    Do you believe that there are opportunities to transfer title to 
Reclamation facilities for which an administrative process does not 
currently exist?
    Answer. Yes, I believe we can and should improve Reclamation's 
approach to Title transfers. While Reclamation has had success with 
title transfer of projects and facilities over the past 10 years, I am 
concerned that the current process for title transfer takes too long, 
is potentially too costly and the number of new title transfers being 
proposed is declining. I believe that there are opportunities for 
mutual benefit to Reclamation, water users and other stakeholders with 
transferring title that we may be missing. Through the Managing for 
Excellence (M4E) initiative, a team was established to develop 
recommendations on how Reclamation might reinvigorate its title 
transfer effort, and in particular, look at ways to reduce the barriers 
that exist and identify incentives that may encourage more entities to 
pursue title transfer. If confirmed, I would appreciate the opportunity 
to work with you and the Committee to reinvigorate Reclamation's title 
transfer effort.
    Question 2. Do you believe that title transfers would make more 
resources available to Reclamation to fulfill its current mission?
    Answer. I believe there may be potential opportunities to make 
resources available to Reclamation to fulfill its current mission 
through title transfer. However, it is my understanding that the 18 
transfers that have been completed to date have resulted in very 
limited budgetary savings. In most cases, the facilities that are being 
considered for transfer are already being operated and maintained by 
non-Federal entities. This has meant that neither Reclamation employees 
nor Reclamation-appropriated funds were being used to operate and 
maintain the facilities. Additionally, Reclamation's administration of 
these facilities prior to transfer involved relatively few Reclamation 
employees and limited appropriated funds. In those cases where some 
staff time may have been freed up, those resources have been redirected 
to other ongoing issues faced by that office. The transfers that have 
occurred to date have been relatively small and were scattered across 
Reclamation's jurisdictional areas--thereby diluting any potential 
Reclamation-wide, regional or area office impact. In other words, there 
has not been a concentration of title transfers which would result in 
significant savings. There are, however, other programmatic and 
operational objectives that can be accomplished through title 
transfers.
    Question 3. Please describe some instances in which title transfers 
are not appropriate.
    Answer. There are a number of types of cases where title transfer 
does not seem appropriate. For instance, projects which deliver water 
between states and to other countries, such as some of those on the 
Colorado River or the Columbia River would not, in my view, be good 
candidates for title transfer. In other cases, there are some projects 
which have multiple purposes and there are competing needs and demands 
for the water. While it is possible that an agreement could be reached, 
doing so would be so controversial that it is unlikely that the 
benefits to a potential transfer would outweigh the costs of reaching 
agreement between the diverse and competing demands. Where we have seen 
efforts to convey projects with multiple stakeholders who have 
competing demands for the resources, an area of extreme difficulty is 
in developing post-transfer governance arrangements--in other words, 
determining who fills the management role that Reclamation or the 
Secretary played when it was a Federal project. In addition, title 
transfers would be inappropriate where the project beneficiaries prefer 
not to accept title to the project. Title transfers should be 
voluntary.
    Question 4. What changes, if any, would you make to S. 3832?
    Answer. While I have not had an opportunity to closely study the 
details of S. 3832, from my understanding of the legislation, its goals 
are consistent with my views and is consistent with the effort underway 
through Reclamation's Managing for Excellence initiative related to 
title transfer. I think that effort will be tremendously valuable in 
furthering the goals articulated by S. 3832. I hope that we can work 
together to use the work you have done and the results of the Managing 
for Excellence effort to develop a comprehensive approach to title 
transfer.
             title transfer--middle rio grande legislation
    Question 5. I have been working with the state of New Mexico, the 
Middle Rio Grande Conservancy District and the six Middle Rio Grande 
Pueblos to draft legislation that would transfer title to some works 
and real property interests associated with the Middle Rio Grande 
Project.
    Do I have your commitment that, if confirmed, you will work with my 
office to produce a legal description of the works and real property 
interests that we would be transferred by the legislation?
    Answer. Yes. Reclamation has worked constructively with the 
committee staff this year to provide copies of all available contracts, 
contract amendments, easements and correspondence specific to the works 
proposed for transfer. I would continue to prioritize that work.
    Question 6. What other works and real property interests associated 
with the Middle Rio Grande Project, if any, do you believe are 
appropriate for transfer from the Federal government to the Middle Rio 
Grande Conservancy District?
    Answer. I am advised that the real property interests associated 
with the Middle Rio Grande Project distribution facilities and drains 
are appropriate for transfer if those interests are within the District 
boundaries and not on Indian land.
                middle rio grande pueblo water delivery
    Question 7. Pursuant to a 1981 agreement, Reclamation is 
responsible for releasing water to meet the Pueblos ``prior and 
paramount'' rights. Pursuant to the 1981 agreement, the Bureau of 
Indian Affairs is required to ensure that these obligations are met. 
The Pueblos have raised concerns regarding the arrangement created by 
the 1981 agreement.
    If confirmed, how would you improve the relationship between 
Reclamation, the Bureau of Indian Affairs and the Pueblos regarding 
Pueblo water delivery under the 1981 agreement?
    Answer. The prioritization of communication and understanding by 
all parties is essential. Early in 2006, the Bureau of Indian Affairs 
(BIA) and Reclamation began holding regular meetings of technical 
representatives from the agencies and the Pueblos to work through 
technical issues related to storage and release of water for the Six 
Middle Rio Grande Pueblos for the 2006 irrigation season. These 
meetings resulted in agreement on a storage volume for the 2006 
irrigation season and have facilitated a more cooperative approach to 
releases throughout the season. In addition, Reclamation managers 
regularly meet with the Six Middle Rio Grande Pueblos' Governors at 
their Water Coalition meetings. I would support continuation of the 
meetings, which have strengthened the relationship and would actively 
seek other methods and forums to enhance communications with the BIA 
and the Pueblos.
                        animas-la plata project
    Question 8. Despite past claims of mismanagement and poor planning 
and oversight, the A-LP project is now proceeding at an acceptable 
rate. The President's budget calls for $57 million for the project in 
FY 2007. However, some project beneficiaries claim that the project 
requires $75 million in FY 2007 to keep it on schedule. This project is 
of great importance to the communities of northern New Mexico and 
southern Colorado.
    Do you believe that the $57 million requested by the administration 
is adequate to keep the project on schedule?
    Answer. Yes, I believe that the administration's request of $57.4 
million is adequate to maintain the current schedule as published in 
February 2006.
    Question 9. If confirmed, how would you ensure that there are not 
further cost overruns with the project?
    Answer. If confirmed, I would make sure that the processes 
implemented in 2004 are continued. The construction office continually 
evaluates ways to save costs and still maintain the project features. 
Cost tracking procedures that have been implemented relate incurred 
project costs to the current cost estimate (indexed for inflation) 
allowing for early detection of problems. This cost information is 
shared with the project sponsors on a regular basis.
    Question 10. What approaches has the USBR taken its communications 
with stakeholders regarding the A-LP project that may be applicable to 
other projects?
    Answer. I believe several project management techniques being 
employed at A-LP may be applicable to other projects. A ``business 
plan'' has been jointly developed which provides for a means for 
consultation on all important issues related to schedule and costs. The 
intent is to control spending, avoid surprises, and to allow for input 
by stakeholders on key project decisions. Some of these include: cost 
tracking procedures that relate incurred project costs to the current 
cost estimate (indexed for inflation) allowing for early detection of 
problems, bimonthly detailed briefings for project sponsors, schedule 
control techniques, identification of significant risk items and 
contingency planning. A project issue notification system has also been 
implemented. This system allows detailed information on issues and 
decisions that need to be made prior to the next scheduled coordination 
meeting to be shared between Reclamation and stakeholders.
    Question 11. If current funding levels are maintained, when do you 
anticipate that Project will be completed?
    Answer. I am advised that the schedule reflects an estimated 
construction completion of features in the winter of 2011-12 (FY 2012) 
with project closeout in 2013.
                  r&d in water science and technology
    Question 12. Drought and population growth in the western U.S. 
requires that we make more efficient use of water and develop 
technologies to make use of previously impaired or unusable water. 
During the 1960s and 1970s, the federal government funded extensive 
research in water technology which resulted in reverse osmosis--the 
desalination technique most widely used today.
    I believe the federal government should renew its investment in 
water treatment technology. Toward this end, I have funded construction 
of a Tularosa Basin Desalination Research and Development Center in New 
Mexico.
    What role do you believe the Tularosa Facility plays in the overall 
strategy of the Bureau of Reclamation to address western water 
challenges?
    Answer. The Tularosa facility will serve as a key national resource 
for R&D on brackish groundwater. While Reclamation is still in the 
process of developing a business plan for the facility, and a 
desalination strategy, I expect that, in future years, Reclamation will 
draw heavily on the information and experience obtained at the Tularosa 
facility.
    Question 13. As you are aware, the authority for Reclamation's 
Water Desalination Research and Development Act of 1996 was extended 
through FY 2006. Do you support a greater extension of this authority? 
If so, what changes to the authority do you believe are necessary?
    Answer. I support the extension of this authority and would 
appreciate the opportunity to work with you and your staff on this 
issue.
    Question 14. What is the status of the construction activities at 
the Tularosa Basin Desalination Research and Development Center in New 
Mexico? When will the facility be completed? Will additional federal 
money be required to complete the Facility? If so, how much?
    Answer. As discussed with the Senate Appropriations Committee this 
year, construction is scheduled for completion in March 2007. 
Reclamation has been provided sufficient financial resources to 
complete construction.
    Question 15. As Commissioner, what steps would you take to prepare 
for the transition of the Tularosa facility to New Mexico State 
University?
    Answer. The present authority calls for Reclamation to issue an 
advertisement for a competition to enter into a cooperative agreement 
to operate the facility. This would allow NMSU and any other qualified 
entity to submit proposals for consideration. I am aware, however, that 
there is some effort as part of the Senate version of the FY 2007 
Energy and Water Development Act to transition this facility to NMSU. I 
would welcome the opportunity to work with you on the appropriate next 
steps for the Tularosa facility.
                      eastern new mexico pipeline
    Question 16. In 1966, Congress authorized the Bureau of Reclamation 
to study the feasibility of a project that would utilize water from Ute 
Reservoir to supply water to communities in eastern New Mexico. 
Feasibility assessments have been underway for 40 years, resulting in 
numerous reports and feasibility studies. Lack of clear Reclamation 
guidelines for feasibility assessments and turnover of Reclamation 
staff has resulted in confusion among project proponents on how best to 
proceed.
    If confirmed, how would you bring consistency to the technical, 
financial and management assessment processes associated with this type 
of project?
    Answer. Reclamation established an ``Oversight Committee'' to 
assist the Eastern New Mexico Rural Water Authority and other 
communities in developing acceptable feasibility reports for submission 
to Reclamation. If confirmed, I also plan to implement best practices 
that are being identified as a result of Reclamation's Managing for 
Excellence initiative that will rigorously track and monitor programs 
from inception through completion.
    Question 17. When do you anticipate Reclamation will prepare a 
formal review of the most recent design for the Eastern New Mexico 
pipeline? Do you believe that additional appropriations are necessary 
for this purpose?
    Answer. Senate Report 109-274 would allocate $500,000 in fiscal 
year 2007. I am advised that amount is sufficient to complete the 
review if sustained in final conference on the FY 2007 Energy and Water 
Appropriations bill. Reclamation doesn't believe additional funds are 
needed for this purpose. The ``Oversight Committee'' which was 
established to assist the Eastern New Mexico Rural Water Authority is 
currently reviewing draft technical memoranda from the Authority's 
consultant, relating to a number of planning and preliminary design 
issues. Reclamation is awaiting an economic analysis and a financial 
plan from the Authority, and once received, it is expected that 
Reclamation would be able to provide comments on a complete draft 
report within approximately 30 days.
                         gila river settlement
    Question 18. The Arizona Water Settlement Act was passed by 
Congress during the end of 2004. The Act contemplates the construction 
of a water project on the Gila River in New Mexico. The New Mexico 
Interstate Stream Commission is investigating potential projects.
    If confirmed, do I have your assurance that you will carry out all 
activities needed to address the environmental and engineering 
requirements for a New Mexico project on the Gila River?
    Answer. If confirmed, I will continue to carry out all of the 
responsibilities assigned to Reclamation under the Arizona Water 
Settlements Act, including those related to the New Mexico Project. 
Reclamation, through the Gila-San Francisco Coordinating Committee, is 
coordinating with the New Mexico Interstate Stream Commission, 
Southwest New Mexico Water Planning Group, and the U.S. Fish and 
Wildlife Service to evaluate the environmental effects of potential 
water withdrawals from a New Mexico Unit as outlined in Section 212(c) 
of the Arizona Water Settlements Act.
    Question 19. Will you advocate with OMB the need to fund the 
preliminary and final NEPA and engineering activities required for the 
project?
    Answer. Under the Arizona Water Settlements Act (Act), the State of 
New Mexico must provide written notice to the Secretary of the Interior 
by December 31, 2014, of whether it intends to build the New Mexico 
Unit. Reclamation intends to continue to seek funding, as needed, to 
work with the Gila-San Francisco Coordinating Committee and support New 
Mexico's decision-making process. The Act provides that Colorado River 
Basin Project Act (CRBPA) funds be available to make deposits totaling 
$66 million into the New Mexico Unit Fund in 10 equal payments 
beginning in 2012. If New Mexico decides to construct a New Mexico 
Unit, the Act provides that additional federal funding from the CRBPA 
be made available, up to a maximum of an additional $62 million. I have 
and will continue to be an advocate for obtaining appropriate funding 
for all authorized activities associated with this project.
                        rio grande coordination
    Question 20. The Rio Grande, like many other rivers in the West, is 
managed by various Federal and non-Federal agencies, each with its own 
management plans. Frequently, these plans are not well integrated and 
conflict. In the Senate version of the FY2007 Energy and Water 
Development Appropriations bill, I provide funding for the Corps of 
Engineers and Reclamation to work jointly to undertake an Integrated 
Management Plan.
    Do you recognize the value of integrated resources management and 
watershed based planning?
    Answer. I believe that integrated resources management and 
watershed-based planning are a necessity throughout Reclamation, and 
the Rio Grande is no exception. There are currently numerous efforts in 
the Rio Grande along those lines. They include regular, often daily, 
conference calls amongst numerous water management entities. These 
calls are used as a forum for all stakeholders to present their 
projected water demands and to allow discussion of river conditions, 
weather forecasts, Endangered Species Act compliance issues, and 
reservoir storage and release issues. The information exchanged during 
the calls is then used by water management entities, including 
Reclamation and the Corps of Engineers, to improve and optimize 
management of the Upper Rio Grande.
    Question 21. What examples of integrated watershed planning 
currently undertaken by Reclamation serve as a model for this activity 
in the Rio Grande in New Mexico?
    Answer. I believe a prime example is the Upper Rio Grande Water 
Operations Review and EIS in which the Corps of Engineers, Reclamation, 
and the New Mexico Interstate Stream Commission evaluated respective 
operations and evaluated opportunities to optimize those operations. 
Not only did the three Joint Lead Agencies mentioned above devote 
numerous resources, but many other entities within the basin also 
contributed significant resources. Technical information gathered and 
evaluations done utilizing tools such as the Upper Rio Grande Water 
Operations Model will be the foundation for future water management 
decisions in the basin.
    While each river basin is unique, there are other river basins 
where I believe that integrated management and planning are 
successfully being implemented. Various forms of integrated management 
and planning are ongoing in basins including the Colorado, Platte, 
Sacramento, San Joaquin, Yakima, and others. All involve collaborative 
processes that bring stakeholders, governmental agencies, environmental 
groups, and others together to work toward balanced and hopefully 
consensus-driven solutions to management of resources.
                   chimayo and espanola water systems
    Question 22. Two small communities in the Pojoaque basin north of 
Santa Fe, New Mexico have contaminated and unreliable groundwater 
resources. In 2004, legislation was enacted to help these two 
communities with their water resources needs. In FY 2005 and 2006, 
appropriations were provided to Reclamation for this purpose.
    If confirmed, will you continue to help these two communities 
resolve their water resources problems? If so, how?
    Answer. If confirmed, I would continue Reclamation's efforts in 
providing help to those communities including NEPA assistance, 
engineering design, cost estimation and construction management as 
appropriate from the funds allocated to the projects by Congress.
                       esa collaborative program
    Question 23. In order to address endangered species issues in the 
Middle Rio Grande Valley, I established the Middle Rio Grande 
Endangered Species Act Collaborative Program. The Program provides a 
forum for over 20 Federal, State, local and non-governmental entities 
to discuss ways to address endangered species issues along the Rio 
Grande. However, many of the organizations involved in the program have 
concerns over the Bureau of Reclamation's administrative efficiency. In 
the FY 2007 Energy and Water Development Appropriations Bill, I 
included a provision that directs Reclamation to undertake a study of 
the administrative costs associated with the Bureau of Reclamation's 
administration of the program and identify opportunities to increase 
the percentage of funds that are spent to comply with the 2003 
Biological Opinion.
    How is compliance with the 2003 Biological Opinion proceeding? Do 
you feel that adequate funds for this purpose are included in the 
President's Fiscal Year 2007 budget request?
    Answer. Reclamation and the Corps of Engineers remain in compliance 
with the 2003 Middle Rio Grande Biological Opinion (BiOp), and 
Reclamation anticipates being able to comply in fiscal year 2007. 
Adequate funds are provided in the budget request for activities 
necessary to remain in compliance and to contribute to the recovery of 
the listed species and the development of the Collaborative Program.
    Question 24. What construction activities required by the 2003 
Biological Opinion do you anticipate will be completed by the end of 
this calendar year?
    Answer. I am advised that construction activities that are expected 
to be completed by the end of the year include: additional streamgages, 
gates and check structures; at least seven habitat restoration projects 
between Ohkay Owingeh (San Juan Pueblo) and Elephant Butte Reservoir; 
the silvery minnow refugium in Albuquerque; and sandbar destabilization 
in the Rio Grande.
    Question 25. If confirmed, how will you ensure that administrative 
costs associate with the program are kept to a minimum?
    Answer. Reclamation is working through the Executive Committee of 
the Collaborative Program to identify areas where we can reduce 
administrative costs and still protect the integrity of the 
collaborative process. If confirmed, I would work with the Executive 
Committee to continue with this effort.
                               water 2025
    Question 26. One area in the USBR budget request where the 
President is proposing an increase is in the Water 2025 program. The 
budget requests $14.5 million for Water 2025, a $9.6 million increase 
from the FY06 enacted level. This is nearly a 300 percent increase over 
last year's enacted level. As you know, I introduced legislation 
authorizing the Water 2025 program.
    What are some of the major accomplishments of Water 2025? 
Specifically, how have funds that have been appropriated for the 
program reduced conflict among water users?
    Answer. In just three years since the inception of the program, the 
Water 2025 Challenge Grant program is thriving, and a number of other 
Water 2025 efforts are underway to develop technology that can be used 
by water managers to stretch scarce water supplies, thereby reducing 
the likelihood of conflicts over water.
    In fiscal year (FY) 2004 and FY 2005, the Challenge Grant Program 
funded 68 projects to carry out approximately $58 million in water 
system and water management improvements across the West (approximately 
$15 million in Federal investment and $44 million in non-Federal cost-
share). Despite limited funding in FY 2006, Reclamation received more 
than 100 proposals for Challenge Grant funding for the third straight 
year, representing a combined request for over $19 million in Federal 
funding to complete more than $63 million in improvements across the 
West. The 10 projects selected for FY 2006 funding leverage $1.3 
million in Federal funding into more than $5.6 million in water system 
and water management improvements.
    Reclamation will begin collecting data regarding the benefits of 
the Water 2025 Challenge Grant projects funded to date in the coming 
fiscal year. Recipients are required to complete their projects within 
two years from the date of award; therefore, the first projects funded 
under this program in 2004 are expected to be completed in October. 
Based on estimates in the project proposals, the 68 projects funded in 
FY 2004 and FY 2005, along with the 10 projects selected for FY 2006 
funding, could save up to 296,000 acre feet per year, collectively, 
once fully implemented.
    Additionally, the funded Challenge Grant projects have already 
helped to form collaborative alliances that will help to prevent future 
water conflicts. For example, the Central Oregon Irrigation District, 
an FY 2004 Challenge Grant recipient, is working on the establishment 
of a pilot water bank in the Deschutes Basin through an alliance of 
seven irrigation districts, six cities, three tribes and the Deschutes 
Resource Conservancy (the ``Deschutes Water Alliance'' or the 
``Alliance''). In Utah, the Sevier River Water Users Association--a 
partnership of canal companies and river commissioners--is using their 
FY 2005 Challenge Grant to enlarge the existing Supervisory Control and 
Data Acquisition (SCADA) system to allow for expansion of real-time 
monitoring and control systems in a five-county area.
    The projects selected for award through the Challenge Grant program 
in FY 2004, FY 2005, and FY 2006 incorporate the following improvements 
(assuming that all 10 projects selected for funding in FY 2006 receive 
awards):

  <bullet> 27 projects, collectively, will convert 86 miles of dirt 
        canals to pipeline.
  <bullet> 48 projects include installation of water measurement 
        devices, SCADA systems and automated water delivery systems.
  <bullet> 14 projects include water marketing plans.

    Water 2025 has also helped to fund water efficiency improvements 
apart from the Challenge Grant Program. For example, Reclamation and 
the Middle Rio Grande Conservancy District in New Mexico are 50-50 cost 
share partners on projects to implement water efficiency measures 
inside the district, including installation of flow measurement 
devices, lining canals, automating weather stations, and diversion dams 
throughout the District boundaries. To date, $4.5 million in Water 2025 
funding has been allocated to the project.
    Additionally, Water 2025 has provided funding for cost-shared 
grants for the improvement of desalination technology. In FY 2005, $1.7 
million in Water 2025 funding was applied to such grants through 
Reclamation's Desalination and Water Purification Program (DWPR) grant 
program. With this funding, 16 projects were awarded, including 11 
research studies, 1 research pilot, one demonstration project, and 3 
continuing pilot projects.
    Past successes of Water 2025 also include Reclamation's 
collaborative efforts to improve water management technology. Through 
the Challenge Grant Program, for example, Reclamation has provided 
funding to the Mancos Water Conservancy District in Colorado to test 
the effectiveness of different canal lining materials. Also through 
Water 2025, Reclamation has formed a strategic alliance with the 
International Center for Water Resources Management at Central State 
University in Ohio, the Ohio View Consortium, and Colorado State 
University to develop advanced remote sensing technologies to allow for 
more efficient water management decisions. Likewise, Reclamation is 
collaborating with the Desert Research Institute in Nevada on projects 
including the development of protocols for the application of 
polyacrylamide (PAM) as a low cost, effective option to significantly 
reduce irrigation canal seepage.
    Question 27. The Science and Technology Program and the Title XVI 
program have some similarities. Do you believe that activities 
authorized by both programs should be combined into one authority? Is 
there unnecessary duplication among the two programs?
    Answer. The primary focus of the Title XVI Water Reclamation and 
Reuse Program is to provide technical and financial assistance to local 
water agencies to plan, design and construct congressionally authorized 
water recycling projects. These projects are typically very large scale 
and many cost in excess of $100 million to implement. The Title XVI 
Program is only minimally involved in research and demonstration 
projects, which is one of the principle focus areas for Reclamation's 
Science and Technology Program within the Office of Research and 
Development. Therefore, there is very little, if any, duplication of 
effort between these programs and I believe it would make sense that 
they continue to be managed and operated under separate authorities.
                              rural water
    Question 28. Senator Bingaman and I worked very closely with the 
Department to develop a rural water bill which, in November of last 
year, passed the full Senate. The House Resources Committee recently 
held a hearing on this bill. The President's budget proposes a $14 
million, 17 percent decrease for currently-authorized rural water 
projects.
    What is your opinion on the loan guarantee program contained in S. 
895? Do you believe it will benefit stakeholders who are responsible 
for extraordinary operations, maintenance and rehabilitation costs? If 
so, how?
    Answer. As our infrastructure ages, it seems to be increasingly 
difficult for water districts to absorb in any single year the costs of 
some of the significant, non-routine operation, maintenance and 
rehabilitation costs. This is a tough challenge, particularly since 
these water districts sometimes have difficulty securing 1 financing on 
affordable terms. (They cannot pledge the federal project works as 
collateral because they do not own them.) I believe loan guarantee 
authority may be a highly useful tool in helping water districts meet 
this need. As you know, the Administration has been exploring the idea 
of a loan guarantee program within Reclamation in order to help meet 
this challenge. If I am confirmed as Commissioner, I would look forward 
to working with you on how to meet these challenges, including through 
the possible use of new loan guarantee authority.
                       colorado river management
    Question 29. As you know, the seven basin states reached agreement 
on a draft management plan for the Colorado River in order to minimize 
shortages in the Lower Basin and reduce the risk of curtailment in the 
Upper Basin. It is my understanding that this plan will require further 
refinement but is a good step towards addressing this often contentious 
issue.
    When do you anticipate that the Department of the Interior will 
complete the implementation of a final plan?
    Answer. Reclamation anticipates issuing a Record of Decision (ROD) 
in December 2007. Leading up to the issuance of the ROD, Reclamation is 
currently analyzing the impacts of a range of proposed project 
alternatives in a draft Environmental Impact Statement (EIS) that we 
anticipate will be published in February 2007. We anticipate that a 
final EIS will be issued in September 2007. The EIS process is 
providing an opportunity to consider the tradeoffs between the 
frequency and magnitude of shortages and the benefits of water storage 
in Lakes Powell and Mead, including water storage, power production, 
recreation, and environmental benefits.
    Question 30. What is the status of the implementation of the 
Colorado surplus plan developed several years ago?
    Answer. Water transfers have been occurring between California's 
agricultural and municipal and industrial users and California is 
living within its 4.4 million acre-foot (mat) apportionment of Colorado 
River water. Current drought conditions in the Colorado River Basin 
have limited the opportunities for California and others to obtain 
surplus water under the Colorado River Interim Surplus Guidelines 
(ISG).
    The ISG, adopted in January 2001 and effective through 2015, are 
applied each year as part of the Annual Operation Plan to determine the 
conditions under which the Secretary may declare the availability of 
surplus Colorado River water for the states of Arizona, California, and 
Nevada. The ISG were adopted to provide California with a ``soft 
landing'' to gradually reduce its use to 4.4 mall The Colorado River 
Water Delivery Agreement, signed on October 10, 2003, implemented the 
``California 4.4 Plan'' by quantifying the water entitlements of key 
California water agencies and also providing for the transfer of water 
among the California agencies. As part of the development of Lower 
Colorado River Basin shortage guidelines and coordinated management 
strategies for Lake Mead and Lake Powell, Reclamation is considering 
the extension and/or modification of the terms of ISG through 2025 to 
provide a consistent interim period under which to gain valuable 
experience to advise future operations of the reservoirs.
    Question 31. How do you plan to implement the recommendations of 
the shortage management plan, particularly the suggestions for 
increasing water available in the Colorado River?
    Answer. Reclamation anticipates issuing a Record of Decision in 
December 2007 that will establish guidelines for the coordinated 
operations of Lake Powell and Lake Mead. These guidelines will then be 
implemented each year through the development of the Annual Operating 
Plan for the Colorado River. I expect that the guidelines will include 
provisions allowing for the storage and delivery of conserved and 
developed water. Most importantly, our implementation will be guided by 
constant and effective communication with the Basin states and the 
stakeholders with ongoing interest in the management of the Colorado 
River.
    Additionally, there are many specific proposals for projects and 
measures that will help augment water supplies of the Colorado River. 
The specific projects will be considered on a case-by-case basis and 
implemented consistent with appropriate environmental compliance and 
agreements among the parties involved.
               2003 biological opinion flow requirements
    Question 32. Mr. Johnson, in 2008, the City of Albuquerque will 
begin diverting its allocation of San Juan Chama Project water. As a 
result, Reclamation will no longer be able to lease this water in order 
to comply with the flow requirements contained in the 2003 Biological 
Opinion for the Rio Grande Silvery Minnow. I understand that 
Reclamation initiated a series of meetings in order to address this 
problem.
    How do you propose that we address the shortfall of water for the 
Silvery Minnow when the City of Albuquerque's allocation of San Juan 
Chama Project water is no longer available?
    Answer. In recent years, there have been other willing sellers of 
San Juan-Chama Project water. In the future, Reclamation recognizes 
that the municipalities will be developing the capability to divert and 
use their contract water. Reclamation is working with the Fish & 
Wildlife Service, the Corps of Engineers, the State of New Mexico, and 
other stakeholders through the Middle Rio Grande Collaborative Program 
to look at opportunities to more efficiently meet all water users' 
needs and also to secure water. If confirmed, I would encourage 
Reclamation to pursue a long-term strategy for meeting the needs of the 
silvery minnow through involvement of key agencies, entities, and 
stakeholders.
    Question 33. Please explain to the Committee the progress 
Reclamation has made in meetings to address this problem.
    Answer. Reclamation, with the help of the Middle Rio Grande 
Collaborative Program, has initiated discussions with the key agencies, 
entities, and stakeholders on addressing this problem. A facilitated 
workshop, sponsored by the Collaborative Program, was held, and a 
formal dialogue was started which will lead to follow up actions 
anticipated over the coming months. If confirmed, I would support the 
continuation of this dialogue which I hope will lead to additional 
progress in meeting the long-term goals of the Collaborative Program.
                    indian water rights settlements
    Question 34. Mr. Johnson, un-adjudicated Indian water rights claims 
in New Mexico are a source of great uncertainty and must be resolved. 
Reclamation has a significant role in advancing these settlements. The 
proposed Navajo settlement would require the construction of the 
Navajo-Gallup Pipeline for which an Environmental Impact Statement 
would be required. The Aamodt and Abeyta settlements require the 
acquisition of water in the Rio Grande Basin. Several months ago, 
Reclamation produced a document that identifies an additional 1,010 
acre feet of water per year that is available in the Rio Grande Basin.
    If confirmed, would you undertake technical analyses to ensure that 
the 1,010 acre feet of additional water is available for the Aamodt and 
Abeyta settlements? When would you complete these analyses?
    Answer. I am advised that, using computer modeling runs, the Corps 
of Engineers and Reclamation are cooperatively assessing the 
availability of the estimated 1,010 acre feet of additional water. We 
anticipate that these analyses would be completed within six months.
    Question 35. When do you anticipate Reclamation will complete the 
draft Environmental Impact Statement for the Navajo-Gallup Pipeline?
    Answer. I understand that Reclamation and the Department are 
currently revising the Navajo-Gallup Water Supply Project Preliminary 
Planning Report/Draft Environmental Impact Statement to address 
comments received from an initial departmental review. The revised 
document should be available for cooperating agency review within 30 
days.
    Question 36. If confirmed, what other technical assistance can 
Reclamation provide to advance the New Mexico Indian water rights 
settlements?
    Answer. Reclamation is prepared to provide technical assistance 
needed in analyzing water rights, evaluating proposed water delivery 
systems, or modeling the effects of moving water rights to different 
locations. There are a significant number of appurtenant contracts, 
State diversion permits, applications, and cooperative agreements 
associated with the proposed settlements that Reclamation could assist 
in developing. If confirmed, I would be happy to work with you in 
providing technical assistance.
    Question 37. If confirmed, what action would you take on the 
hydrologic determination required for the Navajo Settlement?
    Answer. The hydrologic determination of the availability of water 
from Navajo Reservoir was transmitted from the Acting Commissioner of 
Reclamation to the Secretary of the Interior's Water Rights Office on 
July 3, 2006. This determination must be approved by the Secretary 
prior to completion of Indian Water Rights Negotiations. The Secretary 
must then approve a settlement contract. The hydrologic determination 
and the contract must then be transmitted to the Congress for approval.
                        managing for excellence
    Question 38. Reclamation's Action Plan, identifies 41 ``action 
items'' that, according to Reclamation, require thorough analysis and 
decision making.
    What do you believe is a reasonable timeframe for Reclamation to 
complete implementation of the Action Plan?
    Answer. Employee teams have been formed for all 41 action items. 
Those teams have begun to analyze the issues and will be obtaining 
input from stakeholders and employees, conducting in-depth studies, and 
developing alternatives and recommendations. Many of the action items 
will be completed in 2006, and all action items will be completed by 
December 2007. As teams complete their action items, Reclamation 
leadership will make decisions for implementing recommended changes and 
improvements. However, the involvement of stakeholders is vital to the 
success of the effort. For example, roughly half of the action items 
cannot be credibly addressed without direct input from water and power 
customers. Other action items depend on the wisdom of rank-and-file 
employees, changes to legislation, or expert guidance from government 
management experts inside and outside of the Department of the 
Interior. We will seek help and support from all these sources.
                          aging infrastructure
    Question 39. I am concerned about Reclamation's ability to maintain 
its existing infrastructure. The average Reclamation project is over 50 
years-old and some projects are over 100 years-old. In many instances, 
projects have exceeded their design life. This has resulted in a great 
increase in operational, maintenance, and rehabilitation obligations 
for both Reclamation and stakeholders. However, as these facilities 
age, many communities can no longer afford the costs of operations, 
maintenance and rehabilitation associated with Reclamation facilities.
    How do you propose we address increasing operational, maintenance 
and rehabilitation obligations for both Reclamation and stakeholders? 
Do you believe that loan guarantees to Bureau customers provide a good 
tool to address this problem?
    Answer. Reclamation will continue to advocate a preventive 
maintenance philosophy (condition assessments, equipment testing, and 
related evaluations) to identify deficiencies at an early stage so that 
more costly breakdown maintenance and service interruptions are avoided 
or minimized. This philosophy will also help to lengthen the service 
lives of related infrastructure facilities, thereby reducing the need 
for costly major rehabilitation and replacement activities. 
Additionally, these early identification and communication of 
operation, maintenance, and replacement (OM&R) needs will assist 
Reclamation and stakeholders to plan accordingly through the 
accumulation of adequate reserve funds and/or budgetary resources. 
Where these strategies are insufficient to meet the costs of 
extraordinary OM&R, I believe a loan guarantee program may be a highly 
useful tool in helping water districts meet this need.
    Question 40. Noting the average age of USBR infrastructure, are you 
concerned with the possibility of catastrophic failure of Reclamation 
facilities? If confirmed, how would you address this problem?
    Answer. Reclamation actively monitors facilities for safety and 
integrity, and does not have indications where there may be a 
catastrophic failure of any of its facilities due specifically to 
aging. Through established monitoring, assessment, and evaluation 
programs and procedures at these facilities, Reclamation continues to 
take the necessary steps, in concert with involved stakeholders, to 
avoid and prevent any catastrophic failures. However, regardless of the 
impact of aging, there is always the possibility of concerns or issues 
beyond the control of Reclamation that may contribute to any such 
failure. Reclamation continues to address these situations with 
proactive efforts and diligence to help ensure the structural integrity 
and operational reliability of these facilities. Maintaining an active 
and vigorous dam and facility safety program will continue to be a high 
priority for Reclamation if I am confirmed as Commissioner.
    Question 41. Do you believe that OMB appreciates the increasing 
budgetary burden that OM&R obligations will impose on Reclamation? If 
not, do you plan to advocate this need for additional funding for this 
purpose with OMB?
    Answer. Yes. I believe that the challenges of meeting OM&R 
obligations in a time of limited budgets is well understood and 
appreciated within the Department of the Interior and OMB. While I 
expect that we will continue to operate with limited budget constraints 
in the near future, as Commissioner, I would work closely with the 
Department, OMB and Congress to ensure that our obligations are well 
understood, our work is properly prioritized, and that adequate funding 
is available.
                              outsourcing
    Question 42. The FY2003 Omnibus Appropriations Act contained a 
provision requiring Reclamation to use the private sector for 10 
percent of its planning, engineering and design work in fiscal year 
2003, and 10 percent in each subsequent year until the level of work is 
at least 40 percent.
    Were you aware of this requirement, and do you know if Reclamation 
has complied with this statutory mandate?
    Answer. Yes, Reclamation has complied with this fiscal mandate. 
According to the most recent data available as of July 2004, 
Reclamation identified approximately 43% of this type of work as being 
outsourced in fiscal year (FY) 2003, and 45% in FY 2004.
    Question 45. According to OMB Circular A-76, ``commercial 
activities should be subject to the forces of competition.'' The 
Circular also states that ``the government shall perform inherently 
governmental activities.''
    How would you define ``inherently governmental'' ?
    Answer. I would apply the definition of ``inherently governmental'' 
that appears in Attachment A of OMB Circular A-76 at pages A-1 and A-2, 
which emphasizes that inherently governmental activities are those that 
are ``intimately related to the public interest.''
    Question 44. Former Assistant Secretary for Water and Science, 
Bennett Raley, who requested the NRC report, found ``construction 
functions can almost always be performed cheaper and more efficiently 
by districts or private companies.'' I have heard similar complaints 
from Reclamation customers as well.
    Is it your experience that Reclamation costs are higher than those 
found in the private sector for similar services? If so, to what do you 
attribute these higher costs?
    Answer. I have heard both positive and negative comments from 
customers and Reclamation field staff regarding the cost of its 
engineering services. Reclamation has studied this issue, and found 
that its costs are very similar to those found in the private sector. 
Our Technical Service Center in Denver has continuously benchmarked its 
products and services with those of the private sector.
    In any case, it is critical that Reclamation accomplishes its 
engineering activities in the most cost efficient manner possible, 
consistent with sound engineering principles. Reclamation is conducting 
a comprehensive evaluation of its Engineering and Design Services so 
that we are able to determine what level of core capability is needed 
to fulfill our mission with appropriate quality and efficiency in the 
future. This activity is now underway as part of the Managing for 
Excellence process, and will be complete by December 2007.
    Question 45. Do you believe that greater outsourcing by Reclamation 
would result in cost savings to Reclamation customers?
    Answer. At this time, I cannot say conclusively whether this 
practice would reduce or increase costs to Reclamation customers. As we 
intend to determine through the Managing for Excellence process, the 
key question is exactly what activities and to what extent can further 
outsourcing be accomplished without compromising our ability to 
accomplish the Reclamation mission. We must also be sensitive to the 
interests of the taxpayers, our rate payers, and the long-term 
capability of our organization.
    Responses of Robert W. Johnson to Questions From Senator Thomas
    Question 46. As you know, the seven Colorado River Basin States are 
developing a basin-wide water supply augmentation plan for the Colorado 
River Basin. Assuming that the provisions of this augmentation plan are 
workable, what are your views on the appropriate role for the Bureau of 
Reclamation in assisting the seven Basin States in that plans 
implementation?
    Answer. I fully support the efforts of the Basin States to develop 
an augmentation plan for the Colorado River Basin. Reclamation is 
focusing its efforts on working with the states to develop a dependable 
water supply that will carry the basin through good times and bad. To 
that end, we are engaged in a number of strategies to stretch water 
supplies, including conservation efforts, water banking, technological 
improvements to infrastructure, and hydrology studies. If confirmed, I 
would continue this constructive arrangement with the states.
    Question 47. What water management options do you think the Bureau 
of Reclamation will employ to facilitate the implementation of water 
supply augmentation measures to be proposed in the States' plan?
    Answer. In the Colorado River Basin, we anticipate establishing 
guidelines in December 2007 for the coordinated operations of Lake 
Powell and Lake Mead as well as guidelines for determining and 
implementing shortages in the lower basin. In addition, we anticipate 
that these guidelines will include administrative provisions that will 
facilitate the storage and delivery of certain water supply 
augmentation measures in the lower basin. The proposed guidelines will 
then be implemented each year through the development of the Annual 
Operating Plan for the Colorado River.
    We are currently engaged with the Basin States as they advance 
their augmentation studies and pilot projects for consideration and 
implementation. Some projects will be implemented independently by the 
states, both individually and collectively, and others will require 
both federal and state implementation. For example, cloud seeding 
activities would likely be a state activity, while others, such as the 
Drop 2 Regulatory Storage Project in the lower basin, would involve 
joint efforts by multiple entities, including Reclamation.
    Question 48. Aging infrastructure is a huge issue facing the Bureau 
of Reclamation across the western United States. Many Reclamation 
structures, such as the Pathfinder Dam in Wyoming, are close to 100 
years old and need significant rehabilitation. Our national dependence 
on this critically important water infrastructure, due to ongoing 
drought, increasing water demands and the need for hydropower 
generation, is only growing.
    What, in your view, is the best approach for Reclamation to take in 
addressing the fiscal impacts that infrastructure rehabilitation will 
create for the American people?
    Answer. Reclamation is keenly aware of the fiscal issues associated 
with infrastructure rehabilitation. As part of Managing for Excellence, 
an aggressive effort is underway to develop a response to this 
challenge. Reclamation is conducting an assessment of the need and is 
gathering data from districts in an effort to fully understand this 
challenge.
    The Administration has been exploring the idea of a loan guarantee 
program within Reclamation in order to help meet this challenge. 
Additionally, as you know, a provision authorizing a loan guarantee 
program is included in S. 895, introduced by Senators Domenici and 
Bingaman. I believe loan guarantee authority could be a highly useful 
tool in helping water districts meet this need. If I am confirmed as 
Commissioner, I would look forward to working with you on how to meet 
these challenges, including through the possible use of new loan 
guarantee authority.
     Responses of Robert W. Johnson to Questions From Senator Smith
    Question 49. What is the status of the Chiloquin Dam removal effort 
in the Upper Klamath Basin?
    Answer. Reclamation continues to work closely with Bureau of Indian 
Affairs (BIA) and Modoc Point Irrigation District to secure agreements 
to allow the removal of Chiloquin Dam to proceed. When such agreements 
are executed, Reclamation will work closely with BIA to achieve the 
removal in an expeditious and cost effective manner, with as little 
environmental disruption as possible.
    Question 50. What is the Bureau doing to lower reimbursable 
operations and maintenance costs (i.e. power costs) for the Klamath 
Project, in light of the pending electricity rate increases?
    Answer. Reclamation continues to work with the water users to 
attempt to limit the expected increases in power rates. Reclamation has 
provided testimony in rate increase hearings in both the Oregon and 
California Public Utility Commissions, and has provided a Section 4(e) 
requirement to Federal Energy Regulatory Commission (FERC) in the 
Project No. 2082 re-licensing process to limit the power cost to the 
cost of service. Reclamation will continue to make this issue a 
priority in any venue that may yield lower rates for Project use as 
well as water user rates.
    Question 51. How is the Bureau preparing for the reintroduction of 
salmon about the Pelton-Round Butte Dam in the Deschutes Basin?
    Answer. According to the NOAA Fisheries February 1, 2005, 
Biological Opinion to FERC, the reintroduction of anadromous fish above 
Pelton-Round Butte dam is ``a sizeable and complex undertaking'' with 
``major uncertainties.'' Additionally, Reclamation is unaware how NOAA 
Fisheries will treat these fish for purposes of Endangered Species Act 
protection. We are monitoring the progress of the program and are 
prepared to respond appropriately as this experimental effort 
continues.
   Responses of Robert W. Johnson to Questions From Senator Bingaman
                      navajo-gallup project delays
    Question 52. In early July, I sent a letter to Secretary Kempthorne 
requesting that the Department release the draft EIS on the Navajo-
Gallup Pipeline Project. This letter was a follow-up to an April 2003 
letter I sent to Commissioner Keys urging Reclamation to complete the 
draft EIS. At that time, I was told to expect a public release by 
February 2004. Here we are two and a half years later and still no EIS. 
Yet Congress has appropriated almost $3 million over the last 8 years 
to complete a feasibility study of the project.
    Doesn't this strike you as an unusually long time to complete a 
feasibility study and EIS? As Regional Director of Reclamation's Lower 
Colorado River region, did you have any studies or environmental 
reviews take this long and cost this much money? Will you review this 
situation and report back on the record, the status of the EIS and when 
I can expect it to be released to the public?
    Answer. The length of time taken to develop, review, and release 
the Navajo-Gallup Water Supply Project Preliminary Planning Report/
Draft Environmental Impact Statement is certainly more lengthy than 
usual and is longer than Reclamation originally anticipated. The 
Department and Reclamation are currently revising the Navajo-Gallup 
Water Supply Project Preliminary Planning Report/Draft Environmental 
Impact Statement to address comments received from an initial 
departmental review. The revised document should be available for 
cooperating agency review within 30 days. If confirmed, I would be 
prepared to encourage the release of the document as quickly as 
possible and would be willing to report back to you on its progress.
                        managing for excellence
    Question 53. Last year, the National Academy reviewed and expressed 
concern about Reclamation's approach to a number of issues, including 
project planning and development. Reclamation's own self assessment 
seems to validate that concern in the ``Managing for Excellence'' plan, 
where it states there exists a lack of guidance on developing projects, 
as well as a lack of consistency.
    Is the lengthy process and the delays in developing the Navajo-
Gallup EIS representative of problems with Reclamation's planning 
process or has the process been delayed by other actors within the 
Department of the Interior? What can you do as the Commissioner of 
Reclamation to increase the organization's efficiency in project 
planning? Is this a priority in the Managing for Excellence effort?
    Answer. The Navajo-Gallup DEIS is currently being reviewed within 
the Department and as you know this project has been included as part 
of a larger Navajo Nation water rights settlement on the San Juan River 
in New Mexico. This issue is complex and we recognize that the process 
thus far has been lengthy.
    Reclamation is addressing project planning as part of our Managing 
for Excellence effort. If confirmed, as Commissioner I will ensure that 
processes are developed to increase efficiency and transparency in our 
project planning efforts.
                 eastern new mexico rural water project
    Question 54. The Navajo-Gallup EIS is not the sole example of 
problems with Reclamation's planning process. In Eastern New Mexico, a 
number of communities have been working together for almost 10 years to 
develop an Eastern New Mexico Rural Water System. Reclamation has been 
long involved in this effort but never raised substantial issues with 
the project until I introduced legislation in 2004 to try and force a 
dialogue on the project. The issues Reclamation raised have to do with 
the project's feasibility and seem to represent a moving target that is 
very frustrating for the communities involved.
    Are you in favor of Reclamation creating clear feasibility criteria 
so that the project proponents have realistic expectations of the types 
of analysis that need to be undertaken in evaluating projects? Is the 
development of such criteria part of the Managing for Excellence 
effort?
    Answer. Reclamation recognizes that through our Managing for 
Excellence effort we have a timely opportunity to review and enhance 
our feasibility study criteria. If confirmed, as Commissioner I am 
committed to clearly communicating the results of our team activities 
to our stakeholders.
                            reclamation fund
    Question 55. Whether it be Indian water rights settlements, rural 
water projects, Water re-use projects; conservation programs; or 
endangered species recovery programs, there is a huge unmet need out 
there in Reclamation's service areas for federal resources to help 
States address pressing water needs. Recognizing the budget cuts made 
in all federal water resource programs, the Western Governors 
Association, in a recent report entitled ``Water Needs and Strategies 
for a Sustainable Future'', suggest increasing appropriations from the 
Reclamation Fund to support authorized Reclamation projects and 
purposes. As I understand it, the Reclamation Fund, which includes 
several different revenue sources to support authorized Reclamation 
activities, currently has an unappropriated balance of approximately $6 
billion. This surplus exists because revenues have greatly exceeded 
appropriations from the Fund over the last several years.
    Do you agree with the Western Governors that it makes sense to tap 
into the Reclamation Fund surplus to help address some of the urgent 
water needs that exist in the arid West? If not for general use, would 
it make sense to tap into that surplus for a specific and defined 
purpose, such as the implementation of Indian Water Rights settlements?
    Answer. I am aware of the position of the Western Governors 
Association on the use of the Reclamation Fund to meet western water 
needs. It is an interesting idea. However, it is not one that has been 
vetted within the Administration or with stakeholders. If confirmed, I 
would be willing to have an appropriate dialogue about this idea along 
with other proposals regarding what might be done in a time of limited 
budgets to meet important needs.
                        climate change and water
    Question 56. The Climate Change debate now seems to be shifting 
from whether or not Climate Change is occurring, to a discussion of how 
to respond. With respect to water, we're already experiencing 
significant effects. Average temperatures in the West have increased 
between 1 & 2 degrees F over the last 100 years and as a result, 
precipitation patterns are changing with an observed trend of less snow 
pack and more rain. Snow melt and peak runoff times are also occurring 
earlier. These changes can have significant implications for water 
managers. Increasing temperatures can increase the demand for water as 
well as reservoir evaporation. Less snow pack and more rain can also 
significantly affect reservoir storage.
    What is Reclamation doing--or what should it be doing--to assess 
the temperature changes being experienced in the West and determine how 
it might need to modify its current approach to water management? As 
the largest supplier and manager of water in the 17 western States, 
does Reclamation have a responsibility to lead an effort to help the 
water management community address ongoing impacts of climate change?
    Answer. Reclamation has a long history of dealing with climate 
variability. Since its inception, Reclamation's water managers and 
stakeholders have had to cope with the highly variable climate of the 
western U.S. As historical observations and pre-historical records 
show, climate in the West is characterized by variability over a range 
of timescales. Through the mission of providing water and power to the 
West, Reclamation water managers and stakeholders have developed a wide 
array of tools and methods for dealing with climate variability. 
Although Reclamation does not directly research potential future 
changes in climate variability, Reclamation engineers and scientists 
strive to keep abreast of the voluminous literature on the topic. As a 
matter of practice, operational plans and hydrology data are constantly 
updated, thereby taking into account short term climate variability.
    Reclamation is currently working with other state and federal 
agencies to address potential vulnerabilities to climate change and 
develop appropriate response strategies. Through the Research and 
Development program, Reclamation is testing the application of 
innovative tools for water supply forecasting, and looking at methods 
of assessing risk to water delivery from climate change. To the degree 
that there is scientifically reliable information available, 
Reclamation should make use of that data in decision making. There are 
a number of examples where climate change is being actively considered 
by Reclamation in the resources planning process, including the Salton 
Sea alternative studies and the Colorado River Coordinated Management 
and Shortage Guidelines EIS.
                    aamodt & taos water settlements
    Question 57. In May of this year, Reclamation staff put together a 
concept paper describing a potential opportunity to provide additional 
San Juan-Chama project water for New Mexico Indian water rights 
settlements. The proposal appeared promising but it is unclear how it 
is now being evaluated to determine whether or not an additional supply 
of water is in fact available.
    Would you please check into this matter and report back on the 
status of the analysis that was described in the concept paper? How 
might you further this effort as Commissioner?
    Answer. Reclamation is currently undertaking an analysis with the 
Corps of Engineers, using modeling tools to determine what water is 
available for use in Indian water right settlements. We anticipate that 
these analyses will be completed within six months. If confirmed as 
Commissioner, I would support this and other efforts to think 
creatively about potential sources of water.
                             colorado river
    Question 58. There are a number of ongoing initiatives involving 
the use of water from the Colorado River system.
    Please describe in detail the process and schedule for developing 
Lower Basin Shortage Guidelines and Coordinated Management Strategies 
for Lake Mead and Lake Powell. What is the overall goal for this 
effort?
    Answer. The overall goal of this effort is to improve the Interior 
Department's annual management and operation of key Colorado River 
reservoirs, providing a greater degree of certainty to water users with 
regard to future water supplies. In addition, these actions will be 
designed to delay the onset and magnitude of shortages and maximize the 
protection afforded to water supply, hydropower production, recreation, 
and environmental benefits by water storage in Lakes Powell and Mead.
    The proposed guidelines and coordinated operations strategies are a 
major federal action for which Reclamation is preparing an 
Environmental Impact Statement (EIS). The EIS process is providing an 
opportunity to consider the tradeoffs between the frequency and 
magnitude of shortages and the benefits of water storage in Lakes 
Powell and Mead, including water storage, power production, recreation, 
and environmental benefits. Reclamation is engaging the public, 
stakeholders, and other interested parties in the study process. 
Reclamation has issued a Summary Scoping Report encompassing the 
comments received during the public scoping process. Draft project 
alternatives were published in June of this year that provide a means 
for us to consider a broad range of potential impacts to be evaluated 
in the draft EIS. Currently, we are considering the potential 
hydrologic effects of each draft alternative and will analyze the 
potential impacts to environmental resources. The results of the 
hydrologic and resource analyses will be documented in a draft EIS, 
targeted for public release in February 2007. Reclamation anticipates 
that a final EIS will be completed in September 2007, and a Record of 
Decision will be issued in December 2007.
    Question 59. In May 2006, the Upper Colorado River Region developed 
a draft hydrologic determination regarding the water available from 
Navajo Reservoir and the Upper Colorado River Basin for use in New 
Mexico. It's my understanding that the hydrologic determination is now 
awaiting Secretarial approval. Unfortunately, it now appears that the 
Lower Basin states have raised issues in with the hydrologic 
determination.
    What is the process right now for getting Secretarial approval of 
the hydrologic determination? If confirmed as Commissioner, what will 
be your role in resolving any outstanding issues and getting the 
hydrologic determination approved as quickly as possible? If confirmed, 
will you make this a priority for you and your staff?
    Answer. Certainly the hydrologic determination is an important and 
critical step in the process of settling the water rights claims of the 
Navajo Nation in the San Juan River Basin. The requirement for a 
determination is triggered when a proposed contract for water from the 
San Juan River Basin or Navajo Reservoir is forwarded to the Secretary. 
The Navajo San Juan Settlement includes such a contract as part of the 
settlement, but I have been informed that the Navajo Settlement is not 
sufficiently developed at this time and that some changes to the 
contract could occur through the legislative and environmental review 
processes. The Lower Division States of California, Nevada, and Arizona 
have recently submitted comments to the Department regarding the 
hydrologic determination. The Department is reviewing these comments 
but does not expect that this review will result in any delay to a 
hydrologic determination.
                           middle rio grande
    Question 60. Congress has provided significant funding over the 
last several years to Reclamation to work with the Middle Rio Grande 
Conservancy District on conservation projects and improved water 
operations. This program has been successful in helping to reduce the 
District's water diversions thereby preserving storage to help protect 
against drought and providing potential flexibility in water management 
to address environmental needs.
    What do you think can be done to ensure that improved efficiencies 
in the Middle Rio Grande project contribute to a long-term strategy to 
address the potential water use conflicts that exist in the Middle Rio 
Grande? Would you support the use of Reclamation resources to help make 
similar water infrastructure improvements for the benefit of the Middle 
Rio Grande Pueblos?
    Answer. I believe that, with improved water efficiencies, the 
Middle Rio Grande Conservancy District would be better able to modify 
operations to assist in meeting biological opinion requirements without 
affecting their ability to meet the needs of individual farmers. 
Through this increased flexibility, there will be opportunities to 
formulate the long-term strategy that will reduce conflict. Similar 
water infrastructure improvements for the benefit of the Middle Rio 
Grande Pueblos would also be of significant value. If confirmed, I 
would support the use of Reclamation resources to the extent possible 
to assist the Middle Rio Grande Pueblos in making similar water 
infrastructure improvements.
                             site security
    Question 61. There appears to be some frustration with 
Reclamation's customers as to how Reclamation is attempting to allocate 
the costs of site security.
    Are you working with the power and water-user communities to 
address these issues? From your perspective, what are the key issues 
that need to be addressed to determine how to fairly allocate these 
site security costs?
    Answer. Yes, Reclamation is working regularly with the water and 
power community, as well as the appropriate House and Senate 
committees, to provide information on the allocation of site security 
costs. Reclamation's regional and area offices have consistently 
provided relevant information to customers at the local level on this 
subject. There have also been numerous presentations to customer 
organizations in 2005 and 2006. Briefings have been held with the 
National Water Resources Association, the Family Farm Alliance, the 
Sacramento Municipal Utility District, Central Valley Project Water 
Association and the Colorado River Energy Distributors Association. The 
Office of Inspector General has twice reviewed Reclamation's site 
security program (June 2002, and December 2005) and found that sensible 
budget and accounting practices as well as appropriate financial 
oversight for security measures are in place. The 2005 report found 
that Reclamation has properly accounted for security and law 
enforcement expenditures. Two key issues for Reclamation are: 1) 
Assuring transparency and accountability to customers, while 
maintaining appropriate safeguards for secure facility information; and 
2) Continuing to distribute security costs consistent with project O&M 
allocations. If confirmed, I will continue to work with water and power 
customers to ensure transparency, efficiency, and fairness in the 
payment of security costs for Reclamation facilities.
             tularosa basin desalination research facility
    Question 62. Reclamation's budget indicates that it will complete 
construction of the Tularosa Basin desalination facility in FY 2007.
    Has Reclamation developed an estimate of costs beyond FY 2007, for 
what it will take to operate and maintain that facility? Are you 
committed to providing Reclamation's full support to ensure that the 
facility is a premier research center? What do you think are the long-
term possibilities for desalination to provide a substantial amount of 
water to meet future needs in the West? Will desalination help address 
long-term Colorado River water allocation issues?
    Answer. Yes, construction of the Tularosa facility is slated for 
completion in early 2007. Reclamation is using estimated costs beyond 
FY 2007 in the preparation of the competitive solicitation for the 
operation and maintenance of the facility. We have described how we 
propose to make this a premier research center in the draft Business 
Plan that is undergoing Administration review. Desalination is one of 
the tools that will add to the existing quantity and reliability of 
water supplies in the West. Among Colorado River water users, ocean 
desalination as a new additional supply is viewed as among the more 
promising alternative for addressing future water needs, both for 
coastal communities and for inland communities through exchanges.
   Responses of Robert W. Johnson to Questions From Senator Cantwell
                       yakima basin storage study
    Question 63. Since 2003, the Bureau of Reclamation has been engaged 
in the Yakima Basin Storage Study to identify potential water storage 
options in the Yakima Basin Watershed. I think this study is critical 
to identify additional water storage solutions along the Yakima River.
    Can you commit to me that as Commissioner of the Bureau of 
Reclamation you will ensure that the study is completed in a way that 
does not prejudice one alternative over another?
    Answer. Yes. If confirmed, I will ensure that Reclamation continues 
to perform the study in an objective and unprejudiced manner.
    Question 64. It is clear that Congress and the State of Washington 
support completing the study. Multiple years of Congressional additions 
to appropriations legislation coupled with significant financial 
support from the State have funded the study's progress thus far. Can 
you commit to me that you will recommend that the funding needed to 
complete the study be included in future budget requests from the 
administration?
    Answer. If confirmed, I am prepared to continue the study in an 
objective and unprejudiced manner. However, I cannot make any firm 
commitments regarding future budget requests. I can commit to giving 
full consideration to the needs of the study as we formulate the 
Reclamation budget.
                      odessa subarea special study
    Question 65. The Odessa Subarea Special Study is investigating the 
possibility of continuing development of the Columbia Basin Project to 
deliver project water to lands currently using groundwater in the 
Odessa Subarea in and near the authorized development of the Project.
    Can you commit to me that as Commissioner of the Bureau of 
Reclamation you will ensure that the Odessa Subarea study is completed 
in a way that does not prejudice one alternative over another?
    Answer. Yes. If confirmed, I would ensure that Reclamation 
continues to perform the study in an objective and unprejudiced manner.
                             security costs
    Question 66. Many irrigators in my State have been concerned about 
the issue of security costs at Bureau Reclamation facilities like Grand 
Coulee Dam. Irrigators and the ratepayers of the Bonneville Power 
Administration feel the burden of increased security costs as they are 
passed to them by the Bureau of Reclamation.
    Obviously, I am supportive of providing the appropriate level of 
security at critical pieces of federal infrastructure. However, these 
projects and their continued security represent a national interest. I 
believe security costs should be distributed equitably and not just by 
irrigators and ratepayers who represent just part of the benefit reaped 
from multipurpose projects like Grand Coulee Dam and other Bureau of 
Reclamation facilities.
    Given your experience in dealing with these issues, what is your 
philosophy on the distribution of funding security costs at Bureau of 
Reclamation facilities?
    Answer. I support the present policy that provides that appropriate 
costs of guards and patrols be treated as project O&M costs subject to 
reimbursement based on project cost allocations, although I do hope to 
continue the dialogue with stakeholders about transparency and 
reliability regarding these costs.
    Question 67. Would you be willing to examine the funding of 
security costs during your term as Commissioner?
    Answer. This issue has been the subject of rigorous debate over the 
past couple of years. I think it is unlikely that there will be a 
significant change in the Administration's position. However, I am 
always open to dialogue and to creative approaches to solving problems. 
I would be willing to continue an appropriate dialogue with our 
customers regarding security costs.

                                    

      

</pre></body></html>
